APPENDIX

GIANINNA GALLARDO, AN INCAPACITATED PERSON, BY
AND THROUGH HER PARENTS AND CO-GUARDIANS PILAR
VASSALLO AND WALTER GALLARDO,
Petitioner,
v.
SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR HEALTH CARE
ADMINISTRATION,
Respondent.

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court of
Appeals for the Eleventh Circuit
(June 26, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order Granting in Part and Denying
in Part Motion to Alter or Amend
Judgment, United States District
Court for the Northern District of Florida
(July 18, 2017) . . . . . . . . . . . . . . App. 61
Appendix C Second Amended Judgment, United
States District Court for the Northern
District of Florida
(July 18, 2017) . . . . . . . . . . . . . . App. 86
Appendix D Order on Summary Judgment
Motions, United States District Court
for the Northern District of Florida
(April 18, 2017) . . . . . . . . . . . . . . App. 88
Appendix E Order Canceling Hearing and Placing
Case in Abeyance, State of Florida
Division of Administrative Hearings
(June 14, 2016) . . . . . . . . . . . . . App. 116
Appendix F Order Denying Rehearing, United
States Court of Appeals for the
Eleventh Circuit
(October 20, 2020) . . . . . . . . . . . App. 119
Appendix G Statutory Provisions Involved . . App. 126

App. 1

APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-13693
D.C. Docket No. 4:16-cv-00116-MW-CAS
[Filed: June 26, 2020]
_______________________________________
GIANINNA GALLARDO,
)
an incapacitated person, by and
)
through her parents and co-guardians
)
Pilar Vassallo and Walter Gallardo,
)
)
Plaintiff - Appellee, )
)
versus
)
)
ELIZABETH DUDEK,
)
in her official capacity as Secretary
)
of the Florida Agency for Health Care
)
Administration,
)
)
Defendant,
)
)

App. 2
MARY MAYHEW,
in her official capacity as Secretary
of the Florida Agency for Health Care
Administration,
Defendant - Appellant.

)
)
)
)
)
)

Appeal from the United States District Court
for the Northern District of Florida
(June 26, 2020)
Before WILSON, BRANCH, and ANDERSON, Circuit
Judges.
BRANCH, Circuit Judge:
This appeal requires us to decide the enforceability
of Florida’s statutory scheme through which it obtains
reimbursement from third parties for Medicaid
expenses it has paid to injured persons. Specifically at
issue in this appeal is whether the Florida Agency for
Health Care Administration (“FAHCA”),1 when it has
not consented to the settlement agreement in a
personal injury lawsuit between the injured person and
a third party, is limited to recovering the expenses it
has paid only from amounts of a third-party recovery
representing compensation for past medical expenses
or whether it can also recover from those amounts that

1

The Florida Agency for Health Care Administration is the state
agency responsible for the administration of Medicaid in Florida.

App. 3
may be compensation for future medical expenses.2
That determination turns on whether federal Medicaid
law preempts the way Florida pursues reimbursement
from Medicaid recipients’ personal injury settlements.
The plaintiff in this suit sought declaratory and
injunctive relief to prevent FAHCA from recovering
beyond that portion of her settlement specifically
designated by the settling parties as compensation for
her past medical expenses. The district court granted
summary judgment for the plaintiff, concluding that
federal law preempts Florida’s statutory scheme for
recovering Medicaid expenses. We conclude that
federal law does not preempt these Florida policies,
and we reverse the contrary decision of the district
court.
I. BACKGROUND
Gianinna Gallardo was grievously injured in 2008
when she was hit by a pickup truck after getting off her
school bus. She remains in a persistent vegetative
state. Florida’s Medicaid program3 paid $862,688.77 for
her medical care. Her parents filed suit in state court
on her behalf against the truck’s owner, the truck’s
driver, and the school district. In 2015, the parties
2

It is also worth noting what this appeal is not about – it is not
about whether FAHCA can recover for medical expenses it has not
yet paid to Appellee but may have to pay in the future.
3

The Medicaid program allows states voluntarily to obtain funding
from the federal government to provide health care benefits for
needy persons. In return, the states must comply with federal laws
and regulations in administering their Medicaid programs. See
generally Harris v. McRae, 448 U.S. 297, 301 (1980).

App. 4
negotiated, and the state court approved, settlement of
that suit for a total of $800,000, which Gallardo’s
parents view as covering only a small fraction of the
total damages she suffered and the future costs she will
face for her care.4 The settlement included an explicit
allocation of $35,367.52 for past medical expenses.5 It
further stated that although some of the balance may
represent compensation for future medical expenses
Gallardo will incur in the future, no portion of the
settlement is reimbursement for future medical
expenses because Gallardo or others on her behalf have

4

Given the lifetime of care Gallardo is likely to require, her
parents estimate the true value of her case at $20 million.
5

As explained by Gallardo in her complaint: “This allocation was
based on the calculation of the ratio the settlements bore to the
total monetary value of all [Gallardo’s] damages. Using the
conservative valuation of all [Gallardo’s] damages of $20,000,000,
it was calculated that [Gallardo] was receiving 4% of the total
monetary value of all her damages in the settlements, and
accordingly she was receiving in the settlements 4% of her
$884,188.07 claim for past medical expenses, or $35,367.52.”

App. 5
not yet paid any.6 Importantly, FAHCA did not
participate in or agree to the terms of the settlement.
When Medicaid recipients receive a personal injury
judgment or settlement compensating them for medical
expenses, federal law requires that the Medicaid
program be reimbursed out of those funds. See 42
U.S.C. §§ 1396a(a)(25)(H), 1396k. Florida law
acknowledges the requirement to seek reimbursement
for medical payments it has made in its Medicaid
Third-Party Liability Act:
It is the intent of the Legislature that Medicaid
be the payor of last resort for medically
necessary goods and services furnished to
Medicaid recipients. All other sources of
payment for medical care are primary to medical
assistance provided by Medicaid. If benefits of a
liable third party are discovered or become
available after medical assistance has been
provided by Medicaid, it is the intent of the
Legislature that Medicaid be repaid in full and
prior to any other person, program, or entity.
6

As further stated by Gallardo in her complaint: “[T]he [settling]
parties acknowledge that [Gallardo] may need future medical care
related to her injuries, and some portion of this settlement may
represent compensation for future medical expenses [Gallardo] will
incur in the future. However, the parties acknowledge that
[Gallardo], or others on her behalf, have not made payments in the
past or in advance for [Gallardo’s] future medical care and
[Gallardo] has not made a claim for reimbursement, repayment,
restitution, indemnification, or to be made whole for payments
made in the past or in advance for future medical care.
Accordingly, no portion of this settlement represents
reimbursement for future medical expenses.”

App. 6
Medicaid is to be repaid in full from, and to the
extent of, any third-party benefits, regardless of
whether a recipient is made whole or other
creditors paid. . . . It is intended that if the
resources of a liable third party become
available at any time, the public treasury should
not bear the burden of medical assistance to the
extent of such resources.
Fla. Stat. § 409.910(1). The Act instructs FAHCA to
“seek reimbursement from third-party benefits to the
limit of legal liability and for the full amount of thirdparty benefits, but not in excess of the amount of
medical assistance paid by Medicaid.” Id. § 409.910(4)
(emphasis added).
Florida carries out this policy by granting FAHCA
“an automatic lien for the full amount of medical
assistance provided by Medicaid to or on behalf of the
recipient for medical care furnished as a result of any
covered injury or illness for which a third party is or
may be liable.” Id. § 409.910(6)(c). In the event the
recipient of the Medicaid funds brings a tort action
against a third party that results in a settlement,
FAHCA is automatically entitled to half of the recovery
(after 25 percent attorney’s fees and costs), up to the
total amount provided in medical assistance by
Medicaid. Id. § 409.910(11)(f).
Crucially, and as will be seen below, in line with the
Supreme Court in Wos v. E.M.A. ex rel. Johnson, 568
U.S. 627 (2013), Florida law allows the Medicaid
recipient to challenge this automatic allocation. A
Florida Medicaid recipient who receives a personal
injury settlement or judgment may challenge the

App. 7
amount FAHCA is claiming under that formula in the
following way. Within 60 days of receiving the
settlement proceeds, the Medicaid recipient must place
the full amount of FAHCA’s entitlement in an
interest-bearing trust account. Id. § 409.910(17)(a).
Then, within 21 days the recipient must file a petition
with the state Division of Administrative Hearings. Id.
§ 409.910(17)(b). In that administrative proceeding,
“the recipient must prove, by clear and convincing
evidence, that the portion of the total recovery which
should be allocated as past and future medical
expenses is less than the amount calculated by the
agency.” Id.
In accordance with these procedures, while
Gallardo’s personal injury suit was pending, FAHCA
attached a lien for $862,688.77 on her cause of action
and any future settlement thereof. When the suit
settled for $800,000, Gallardo’s counsel asked the state
how much it would accept in satisfaction of its lien,
given that the settlement included only $35,367.52
specifically allocated by the parties for past medical
expenses. When there was no response, Gallardo put
$300,000 into a trust account7 and commenced an
administrative action to challenge that amount. In the
course of that action, FAHCA sought to recover more
than the $35,367.52 specifically allocated by the parties
for past medical expenses, arguing that it was also
entitled to recover the amounts it paid from the portion

7

$300,000 is the amount Florida is presumptively entitled to
under the formula of Fla. Stat. § 409.910(11)(f): 25 percent was
deducted from the $800,000 settlement for attorney’s fees
($200,000), then half of the remaining $600,000 was $300,000.

App. 8
of the settlement representing compensation for the
recipient’s future medical expenses.
Gallardo sued the Secretary8 of FAHCA in the
district court under 42 U.S.C. § 1983,9 seeking a
declaration that, under federal law, Florida is not
entitled to reimbursement from anything more than
the portion of the settlement representing
compensation for past medical expenses. She
represented that portion as being the parties’
unilateral allocation in the settlement to past medical
expenses—that is, the cap on Florida’s reimbursement
would be $35,367.52. The suit also sought a declaration
that Florida’s administrative procedure for challenging
the amount of the state’s claim violates federal law.
The parties filed cross-motions for summary judgment.
The district court granted Gallardo’s motion for
summary judgment and denied FAHCA’s. Gallardo ex
rel. Vassallo v. Dudek, 263 F. Supp. 3d 1247, 1249
(N.D. Fla. 2017). It found that Fla. Stat. § 409.910 is
preempted by federal Medicaid law, and it enjoined
FAHCA from enforcing that law by “seeking
reimbursement of past Medicaid payments from

8

Elizabeth Dudek was the Secretary when this suit was filed.
That office is now held by Mary Mayhew, who has been substituted
as a party. Fed. R. App. P. 43(c)(2).
9

The Supreme Court has accepted (without discussion) that
§ 1983, which creates a private cause of action for the deprivation
of federal rights, allows a Medicaid recipient to sue her state
Medicaid agency to enforce the federal Medicaid anti-lien
provision, 42 U.S.C. § 1396p(a)(1). See Wos v. E.M.A. ex rel.
Johnson, 568 U.S. 627, 632 (2013).

App. 9
portions of a recipient’s recovery that represents future
medical expenses.” The court also declared that
the federal Medicaid Act prohibits the State of
Florida from requiring a Medicaid recipient to
affirmatively disprove § 409.910(17)(b)’s
formula-based allocation with clear and
convincing evidence to successfully challenge it
where, as here, that allocation is arbitrary and
there is no evidence that it is likely to yield
reasonable results in the mine run of cases.
FAHCA now appeals.
While this appeal was pending in our Court, the
Florida Supreme Court ruled on an appeal from
another Medicaid recipient’s administrative action to
challenge the amount of the state’s claim on his tort
settlement. The state court held that federal Medicaid
law authorizes the state to obtain reimbursement out
of personal injury settlements only from the portion of
a settlement that represents past medical expenses.
Giraldo v. Agency for Health Care Admin., 248 So. 3d
53, 56 (Fla. 2018). When that decision became final,
Gallardo moved our Court to dismiss this appeal
because the question of future medical expenses was
now moot. We will consider and rule upon that motion
in this opinion.
II. STANDARD OF REVIEW
“We review the grant of summary judgment de
novo, drawing all inferences and reviewing all the
evidence in the light most favorable to the non-moving
party.” Fresenius Med. Care Holdings, Inc. v. Tucker,
704 F.3d 935, 939 (11th Cir. 2013).

App. 10
III. DISCUSSION
FAHCA argues that it was entitled to summary
judgment because federal law does not preempt its
practices of (1) seeking reimbursement for the medical
expenses it has paid from the portion of a third-party
settlement to which FAHCA did not consent that
represents all medical care—both past and future
expenses, and (2) allocating tort settlements through a
formula and an administrative challenge procedure.
Each of these issues is a question of first impression in
this Court, and we consider them in turn. But first, we
discuss the legal doctrine of conflict preemption, which
the district court invoked to invalidate both policies.
A. Conflict Preemption
Because federal laws are “the supreme Law of the
Land . . . any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding,” U.S. Const.
art. VI, cl. 2, “state law that conflicts with federal law
is ‘without effect.’” Cipollone v. Liggett Group, Inc., 505
U.S. 504, 516 (1992) (quoting Maryland v. Louisiana,
451 U.S. 725, 746 (1981)).10 The Supreme Court has
identified two presumptions to assist us in determining
whether a state law is preempted by implication in this
10

Two other types of federal preemption of state law—express
preemption and field preemption—are not at issue here. See
generally Cipollone, 505 U.S. at 516 (discussing the three types of
preemption). The Medicaid statutes contain no statement of
express preemption and no evidence that Congress intended to
occupy the entire field of single-payer health care. To the contrary,
Medicaid is by design a “cooperative” federal–state venture. See
Ark. Dep’t of Health & Human Servs. v. Ahlborn, 547 U.S. 268, 275
(2006).

App. 11
way. Medtronic, Inc. v. Lohr, 518 U.S. 470, 485 (1996).11
First, we presume “that Congress does not cavalierly
pre-empt state-law causes of action.” Id. Therefore, “we
start with the assumption that the historic police
powers of the States were not to be superseded by the
Federal Act unless that was the clear and manifest
purpose of Congress.” Id. (quoting Rice v. Santa Fe
Elevator Corp., 331 U.S. 218, 230 (1947)). Two such
police powers at issue here are the states’ traditional
authority “to protect the health and safety of their
citizens” and “to provide tort remedies to [their]
citizens”—matters of primarily local concern. Id. at
475; Silkwood v. Kerr-McGee Corp., 464 U.S. 238, 248
(1984). Second, “the purpose of Congress is the
ultimate touchstone in every pre-emption case.” Lohr,
518 U.S. at 485. Therefore, we look primarily to the
language of the federal statute and the “statutory
framework surrounding it” to determine whether
Congress intended to preempt state law. Id. at 486.
Together these two principles mean that, in light of
the role of the states as “independent sovereigns in our
federal system,” id. at 485, when the text of a statute
“is susceptible of more than one plausible reading,
courts ordinarily ‘accept the reading that disfavors
pre-emption.’” Altria Group, Inc. v. Good, 555 U.S. 70,
77 (2008) (quoting Bates v. Dow Agrosciences LLC, 544
U.S. 431, 449 (2005)). Further counseling caution in
this context is the fact that the Medicaid Act is

11

Although Lohr was an express-preemption case, we have been
guided by its two “cornerstones” of preemption jurisprudence in
conflict-preemption cases. See, e.g., Ga. Latino Alliance for Human
Rights v. Governor of Ga., 691 F.3d 1250, 1263 (11th Cir. 2012).

App. 12
Spending Clause legislation. See U.S. Const. art. I, § 8,
cl. 1. Because Congress’s power to impose obligations
upon the states under that clause “rests on whether the
State voluntarily and knowingly accepts the terms”
under which federal funding is offered, Pennhurst State
Sch. & Hosp. v. Halderman, 451 U.S. 1, 17 (1981),
“such legislation is binding on States only insofar as it
is ‘unambiguous.’” Wos, 568 U.S. 654 (Roberts, C.J.,
dissenting) (quoting Pennhurst, 451 U.S. at 17). “Where
coordinate state and federal efforts exist within a
complementary administrative framework, and in the
pursuit of common purposes, the case for federal preemption becomes a less persuasive one.” N.Y. Dep’t of
Soc. Servs. v. Dublino, 413 U.S. 405, 421 (1973).
For each of the preemption issues raised in this
litigation, then, we will examine the text of the federal
statutes and determine whether they evince a “clear
and manifest purpose” to preempt aspects of Florida’s
traditional authority over the health of its citizens and
its tort law. If they do not, or if Florida law does not
“directly conflict” with federal law, Wos, 568 U.S. at
636 (quoting PLIVA, Inc. v. Mensing, 564 U.S. 604, 617
(2011)), the state law will stand.
B. Reimbursement From Portions of Settlement
that Represent All Medical Care – Past and
Future
The district court first concluded that, to the extent
Florida law authorizes FAHCA to pursue
reimbursement from anything other than those
amounts of a third-party recovery representing
compensation for past medical expenses, federal law

App. 13
preempts it. For the reasons that follow, and in light of
the “presumption against preemption,” Wyeth v. Levine,
555 U.S. 555, 565 n.3 (2009), we disagree.
I. The Parties’ Unilateral Allocation Does Not Bind
FAHCA
Preliminarily, to the extent Gallardo argues
FAHCA’s recovery is limited to the amount unilaterally
allocated by the parties in the settlement as “past
medical expenses”—$35,367.52—her argument has no
merit. The parties’ unilateral allocation has no bearing
on FAHCA’s power to seek reimbursement for medical
expenses it paid and FAHCA is not bound by the
parties’ unilateral decision. The Supreme Court
worried about just this type of situation: “The [Ahlborn]
Court nonetheless anticipated the concern that some
settlements would not include an itemized allocation.
It also recognized the possibility that Medicaid
beneficiaries and tortfeasors might collaborate to
allocate an artificially low portion of a settlement to
medical expenses.” Wos, 568 U.S. at 634 (citing
Ahlborn, 547 U.S. at 288). Finding otherwise would
lead to incomprehensible results: for example, here, the
parties unilaterally allocated $35,367.52 of the
settlement amount as “past medical expenses,” but
what if the parties had decided to unilaterally allocate
only $20,000, would FAHCA’s reimbursement be
limited to only $20,000? Or, put another way, what if
Gallardo’s parents estimated the true value of her
claim at $40,000,000—making the explicit allocation in
the settlement for past medical expenses half of what
it is now, $17,683.76—would FAHCA’s reimbursement
be limited to that amount? According to Gallardo, in

App. 14
both scenarios, FAHCA’s reimbursement would be
limited by the parties’ unilateral allocation and
determination. But that cannot be true. Parties’
unilateral allocations as to what constitutes “past
medical expenses” do not, and should not, bind
FAHCA. FAHCA is permitted to seek reimbursement
from parts of the settlement money that represent
medical care—including those that the parties have
designated as “future medical care.”
Therefore, when the parties do not seek FAHCA
input on the settlement allocation for medical expenses
on the front end, FAHCA has its statutory allocation
formula on the back end to determine how much of the
settlement should be allocated to medical expenses. As
set forth below, to the extent that the Florida law
permits FAHCA to recover monies it paid from
settlement monies ultimately allocated to all medical
care, past and future, “but not in excess of medical
assistance paid by Medicaid,” Fla. Stat. § 409.910(4), it
does not conflict with the text of the federal Medicaid
statutes and is thus not preempted on this basis.
II. Federal Medicaid Law Does Not Preempt FAHCA’s
Practice of Seeking Reimbursement from Portions of a
Settlement that Represent All Medical Expenses
To address the question of whether FAHCA can
seek reimbursement of medical expenses it paid from
those portions of the parties’ settlement that represent
all medical expenses—past and future—we turn to the
text of the federal Medicaid statutes to determine if
they conflict with (and thus preempt) the Florida
statute. Because the text of the federal Medicaid
statutes only prohibit a State from asserting a lien

App. 15
against any part of a settlement not “designated as
payments for medical care,” Ahlborn, 547 U.S. at 284,
and Florida’s statutes provide it can recover only for
“medical assistance paid by Medicaid [to a Medicaid
beneficiary],” Fla. Stat. § 409.910(4), as well as a
formula for calculating what portion of a settlement
represents such medical care, Fla. Stat. § 409.910(11)(f)
and (17)(b), the text and structure of the federal
Medicaid statutes do not conflict with Florida law and
thereby do not preempt it.
As a starting point, federal law prohibits states
from imposing liens “against the property of any
individual . . . on account of medical assistance paid” to
that beneficiary. 42 U.S.C. § 1396p(a)(1) (“anti-lien
provision”). An exception to the anti-lien provision is
the provision (42 U.S.C. § 1396a(a)(25)) which requires
state Medicaid agencies to pursue reimbursement from
liable third parties “to the extent of such legal
liability”—the entire amount Medicaid paid on behalf
of the individual.12 To aid the States’ reimbursement
requirement, the Medicaid Act provides an assignment
provision (42 U.S.C. § 1396k) which mandates that
states require Medicaid recipients to assign their rights

12

A State plan for medical assistance must “take all reasonable
measures to ascertain the legal liability of third parties” and “that
in any case where such legal liability is found to exist after
medical assistance has been made available on behalf of the
individual . . . the State or local agency will seek reimbursement
for such assistance to the extent of such legal liability.” 42 U.S.C.
§§ 1396a(a)(25)(A, B). The State must have in effect laws providing
for such reimbursement rights. 42 U.S.C. § 1396(a)(25)(H).

App. 16
to payments for medical care from any third party.13
This assignment for the beneficiary’s right to payments
for medical care sets a “ceiling” on the State’s potential
share of a recovery. Wos, 568 U.S. at 633. To be sure,
the federal statutes are clear that third-party
reimbursement is required—indeed, permitted—only
for medical expenses, and not for other damages that
may be covered by a tort settlement, such as lost wages
or pain and suffering. Ark. Dep’t of Health & Human
Servs. v. Ahlborn, 547 U.S. 268, 284–85 (2006). To hold
otherwise would be, in the words of Ahlborn, “absurd
and fundamentally unjust.” Id. at 288 n. 19. And
neither party suggests that the Florida statute would
permit FAHCA to recover from the settlement anything
other than the portion that represents medical
expenses.
But what restrictions, if any, do the federal statutes
impose on a state agency seeking reimbursement for
amounts it has paid from settlement monies allocated
to medical expenses? After all, as noted above, the
assignment provision in section 1396k(a)(1)(A) broadly
requires States to provide that Medicaid recipients
must assign to the state “any” of their rights to
“payment for medical care from any third party” as a
condition of their acceptance of benefits. And that
provision applies before a recipient receives a single
dollar’s worth of medical care through Medicaid. In
contrast to the broad assignment provision set forth in

13

A State plan for medical assistance must provide that “as a
condition of eligibility for medical assistance” from Medicaid, an
individual “is required . . . . to assign any rights . . . . to payment
for medical care from any third party.” 42 U.S.C. § 1396k(a)(1)(A).

App. 17
section 1396k, the language of 42 U.S.C.
§ 1396a(a)(25)(H) requires states to enact third-party
liability laws under which “the State is considered to
have acquired the rights . . . to payment by any other
party,” “to the extent that payment has been made
under the State plan for medical assistance for health
care items or services furnished.” 42 U.S.C.
§ 1396a(a)(25)(H) (emphasis added).14 This past-tense
language, Gallardo and the district court say, clearly
shows that only reimbursement from portions of a
settlement allocated to past expenses is permitted. The
dissent also embraces this argument. But the plain
language of this provision (or any other provision of the
Medicaid statutes, for that matter) clearly contains no
such limitation. While section 1396a(a)(25)(H) is
narrower than the assignment provision in describing
the subrogation rights a state acquires when “payment
has been made,” it simply provides for what the state
can get reimbursed now that it has a general
14

The dissent dubs 42 U.S.C. § 1396a(a)(25)(H) as the “specific
assignment provision.” But, unlike the assignment provision (42
U.S.C. § 1396k(a)(1)(A))—a subsection in section 1396k titled
“Assignment, enforcement, and collection of rights of payments for
medical care; establishment of procedures pursuant to State plan;
amounts retained by State,” id. which mandates a State require
assignment from a liable third party for the medical expenses paid
by the state—42 U.S.C. § 1396a(a)(25)(H) is a subsection in section
1396a which focuses on what “[a] State plan for medical assistance
must--provide,” 42 U.S.C. § 1396a(a)(25)(H), not what a State must
require an individual to assign. And while the dissent does
accurately quote the language of 42 U.S.C. § 1396a(a)(25)(H)
initially, it later says “the state gets the right to only third party
payments made for past medical care.” However, this language is
what the dissent concludes the statute means, not what the
statute actually provides.

App. 18
assignment on all medical expenses—it can recover
medical expenses it has already paid.15 Gallardo, the
district court, and the dissent, however, all make the
same leap-in-logic mistake here and assert that
because the agency is limited to recovering monies it
paid in the past, it necessarily is limited to recovering
these monies from what represents compensation in
the settlement for “past medical expenses.” But while
the language of the federal Medicaid statutes clearly
prohibits FAHCA from seeking reimbursement for
future expenses it has not yet paid (which it is not
seeking to do in this case), the language does not in any
way prohibit the agency from seeking reimbursement
from settlement monies for medical care allocated to
future care.16 To take an example offered by the
15

Congress, in enacting § 1396a(a)(25)(H) sixteen years after it
enacted § 1396k(a)(1)(A), did not contradict or restrict
§ 1396k(a)(1)(A); rather it added to the exceptions to the anti-lien
provision by adding a specific assignment permission for when
payment has been made. Accordingly, the dissent’s citation to the
general/specific canon is inapposite here because the statutes can
be harmonized in pari materia. See Antonin Scalia & Bryan A.
Garner, Reading Law: The Interpretation of Legal Texts 183-85,
252 (2012), noting that the general/specific canon is in effect only
when a specific provision contradicts a general provision—i.e., a
general prohibition that is contradicted by a specific permission;
but when they can exist in harmony as laws dealing with the same
subject they should be read as such—a general permission
followed by a more specific permission.
16

The very existence of this dispute about the federal statutory
text answers the preemption question. Federal law must evince
a “clear and manifest purpose” to supersede the states’ traditional
powers over health care and tort law. What is evident here is at
most ambiguity, and when it comes to preemption, mere ambiguity
is not enough. We conclude, therefore, that in the absence of a

App. 19
dissent, the fruit stand analogy, one step further:
(1) imagine you sold $10 worth of apples, $10 worth of
oranges and $10 worth of cucumbers for a total of $30;
(2) you owed your town $15 for a license it granted you
to pick apples in the town’s orchards; and (3) your town
passed a law stating that, until the license fee is paid
in full, it gets the rights “to payment by any other
party” for fruits. The text of the law, permitting
reimbursement for the apple license from payments by
any other party for “fruits” would allow the town to
take $15 from payments made for “fruits”—apples and
oranges—and is not limited to the $10 of apples sold. If,
however, you sold only $5 worth of apples, $5 worth of

clearly expressed intent to preempt state law in this area, Florida’s
policy must be allowed to stand.
The dissent argues that the question is not, in fact, close,
because “most of the country” believes this question is not a close
one and “most courts have held that the Medicaid Act clearly
preempts state law” in cases like this one. That charge, on its face,
seems persuasive. But what does the dissent mean by “most
courts”? Not what one might think—just one circuit court, two
district courts, and a handful of state courts of appeal and state
supreme courts. These cases hardly suggest that this issue is
settled. And looking at the one decision rendered by our sister
circuit, we find that it is not. In E.M.A. ex rel. Plyer v. Cansler,
674 F.3d 290, 312 (4th Circuit. 2012), aff’d sub nom. on other
grounds Wos v E.M.A. ex rel. Johnson, 568 U.S. 627 (2013)—
notably, this is the case underlying the Supreme Court case we
have discussed extensively herein—the dissent points to language
in the opinion where the Fourth Circuit was simply summarizing
(perhaps a little loosely) the holding in Ahlborn. The Fourth
Circuit did not actually render a decision on the issue involved in
this case. And while the dissent acknowledges that two district
courts and one state supreme court have agreed with the majority,
it dismisses them, characterizing them as “[a] fleeting few.” In any
event, this issue is hardly a settled one.

App. 20
oranges, and $20 worth of cucumbers, the town would
be limited to the $10 paid for fruits and could not take
the remaining $5 from the payments made for
cucumbers. Similarly, here, according to the plain text
of the Medicaid statutes, the State is allowed to seek
reimbursement for payments it made for medical care
under section 1396a(a)(25)(H) (apple picking license)
from settlement monies allocated to all medical care
per section 1396k(a)(1)(A) (fruits) and the only
limitation on its recovery is that it cannot seek
reimbursement from settlement amounts allocated to
categories other than medical care under section
1396p(a)(1) and (b)(1) (cucumbers).
Nor has the Supreme Court held otherwise, despite
the dissent’s suggestion to the contrary. In Ahlborn, the
Supreme Court examined some of the Medicaid
provisions we cite today. In that case, the Court
differentiated between reimbursement from the portion
of a settlement that represents medical expenses and
all other parts of a settlement which the State cannot
reach under the anti-lien provision. In interpreting
§ 1396k(a)(1)(A)’s text—requiring recipients to assign
“any rights . . . . to payment for medical care from any
third party”— the Supreme Court stated that a State
may obtain only an assignment of right to third-party
payments for “medical expenses—not lost wages, not
pain and suffering, not an inheritance.” Ahlborn, 547
U.S. at 281. And although Ahlborn did not resolve how
to determine what portion of a settlement represents
medical care, see Wos, 568 U.S. at 634, the Supreme
Court repeatedly made clear that the State’s
assignment and reimbursement was from the portion
of a settlement that represented “medical expenses”

App. 21
and “medical care” and did not limit it solely to “past”
medical expenses.17 The dissent ignores that nuance,
arguing that “[a]lthough the Supreme Court didn’t feel
the need to spell it out, the logical and necessary
extension of this rule is that the state can recover only
from payments marked for past medical care.”18
Putting aside the dissent’s willingness to read into a
Supreme Court case a holding (and add an extra
word—”past”) the Court did not reach, the statute itself
supports no such reading, as noted above.

17

See Ahlborn, 547 U.S. at 275 (“The Eighth Circuit reversed. It
held that ADHS was entitled only to that portion of the judgment
that represented payments for medical care. For the reasons that
follow, we affirm.”); id. at 280 (“We must decide whether ADHS
can lay claim to more than the portion of Ahlborn’s settlement
that represents medical expenses. The text of the federal
third-party liability provisions suggests not; it focuses on recovery
of payments for medical care.” (footnote omitted)); id. at 281
(“Again, the statute does not sanction an assignment of rights to
payment for anything other than medical expenses—not lost
wages, not pain and suffering, not an inheritance.”); id. at 282
(“[U]nder the federal statute the State’s assigned rights extend
only to recovery of payments for medical care. Accordingly, what
§ 1396k(b) requires is that the State be paid first out of any
damages representing payments for medical care before the
recipient can recover any of her own costs for medical care.”); id.
at 284 (“There is no question that the State can require an
assignment of the right . . . to receive payments for medical
care. . . . [T]he exception carved out by §§ 1396a(a)(25) and
1396k(a) is limited to payments for medical care. Beyond that, the
anti-lien provision applies.”).
18

The dissent also says “[b]ut even if the actual letter of Ahlborn
doesn’t command preemption . . . Ahlborn’s logic necessarily
compels it” and “the Court never used the term “past medical care”
(even though that’s clearly what it meant…).”

App. 22
And the dissent ignores a crucial premise
underlying Ahlborn. In settling the case, the parties
did not allocate categories of damages and the State did
not participate in the settlement; however, to facilitate
the district court’s decision, the State at trial stipulated
to an amount in the settlement agreement attributable
to “medical payments made.” Ahlborn, 547 U.S. at 274.
This amount was much less than the past medical
expenses, so the district court never had to reach the
issue of the state’s entitlement to amounts in the
settlement agreement attributable to future medical
expenses. The stipulation there put a cap on the
amount recoverable by the State even if the amount in
the settlement allocated for past medical expenses
exceeded the stipulation. See Ahlborn, 547 U.S. at 284
n. 13. Here, however, FAHCA never agreed to the
amount attributable in the settlement agreement to
past or future medical expenses. Accordingly, as
described herein, Florida’s Medicaid Third-Party
Liability Act would allow FAHCA to recover the monies
it paid up to (but not in excess of) $300,000 unless
Gallardo is able to show that the amounts she
recovered from a third party for her medical expenses,
past and future, are less than that amount. See
§ 409.910(17)(b).19 Thus, as “discerned from the
language of the . . . statute,” Lohr, 518 U.S. at 485, and

19

In effect, then, FAHCA has two ceilings on its recovery: one, it
can get reimbursed up to “but not in excess of medical assistance
paid by Medicaid,” Fla. Stat. § 409.910(4); the second, a lower
ceiling, is the amount designated by the formula. Even if a higher
amount than $300,000 in the settlement represents compensation
for medical care, FAHCA is limited to reimbursement only from
the $300,000 allocated by the formula.

App. 23
heeding the Supreme Court’s findings that the anti-lien
provisions only “prohibits a State from making a claim
to any part of a Medicaid beneficiary’s tort recovery not
‘designated as payments for medical care.’” Wos, 568
U.S. at 636 (quoting Ahlborn, 547 U.S. at 284), we
conclude that § 409.910(17)(b) of Florida’s Medicaid
Third-Party Liability Act does not conflict with federal
law and is not preempted.
Gallardo has argued, however, that the question
before us is moot because FAHCA is now bound by the
recent decision of the Florida Supreme Court in
Giraldo and thus can seek reimbursement only for
amounts allocated by the settlement to past medical
expenses. See Giraldo, 248 So. 3d at 56 (interpreting
only 42 U.S.C. § 1396a(a)(25)(H)). But first, as both
parties acknowledge, this issue is a question of federal
law, and this federal Court is not bound by a state
court’s interpretations of federal law. Venn v. St. Paul
Fire & Marine Ins. Co., 99 F.3d 1058, 1064 (11th Cir.
1996). And second, the court in Giraldo while citing
Ahlborn, makes the same mistake in logic about section
1396a(a)(25)(H) that the district court and the dissent
make here. Thus, whatever effect Giraldo may have
upon any other case, Giraldo does not bar us from
granting the relief that Florida seeks in the present
case, as Gallardo has conceded. Oral Arg. at 36:52. “A
case is moot when it no longer presents a live
controversy with respect to which the court can give
meaningful relief.” Ethredge v. Hail, 996 F.2d 1173,
1175 (11th Cir. 1993). Because we can give meaningful
relief, this case is not moot. Accordingly, Gallardo’s
motion to dismiss this appeal must be denied.

App. 24
C. Statutory Formula and Challenge Procedure
The district court also concluded that federal law
preempts Florida’s method of allocating the share of a
personal injury settlement from which it is entitled to
seek reimbursement: its formula of half the settlement
after 25 percent attorney’s fees, combined with the
procedure in which a recipient may challenge that
allocation in an administrative hearing by clear and
convincing evidence. See Fla. Stat. § 409.910(11)(f), (b).
For the reasons that follow, and again in light of the
presumption against preemption, we disagree.
The district court relied on the Supreme Court’s
2013 decision in Wos, in which the Court held that the
federal Medicaid anti-lien provision, 42 U.S.C.
§ 1396p(a)(1), preempted North Carolina’s third-party
reimbursement scheme, which automatically allocated
one-third of any recipient’s tort settlement as
reimbursement for medical expenses. Wos, 568 U.S. at
636. In Wos, the Supreme Court explained that North
Carolina’s statutory scheme conflicted with federal law
by “set[ting] forth no process” for determining what
portion was actually for medical expenses, where the
state did not show that the one-third allocation was
“reasonable in the mine run of cases.” Id. at 636, 637.
The district court in this case found that Florida’s
scheme also suffered from these flaws. It concluded
that, although Florida provides a process for
challenging Florida’s claim, the formula’s allocation “is
nearly impossible to rebut” and that “requiring a
Medicaid recipient to overcome a hodgepodge of hurdles
amounts to a quasi-irrebuttable presumption.”

App. 25
Our preemption analysis on this issue begins with
the “ultimate touchstone,” “the purpose of Congress”
which “primarily is discerned from the language of the
. . . statute.” Lohr, 518 U.S. at 485. On this point we
are bound by the Supreme Court’s statement in Wos:
“The Medicaid anti-lien provision prohibits a State
from making a claim to any part of a Medicaid
beneficiary’s tort recovery not ‘designated as payments
for medical care.’” Wos, 568 U.S. at 636 (quoting
Ahlborn, 547 U.S. at 284). Thus, “[a]n irrebuttable,
one-size-fits-all statutory presumption is incompatible
with the Medicaid Act’s clear mandate” because “[i]n
some circumstances . . . the statute would permit the
State to take a portion of a Medicaid beneficiary’s tort
judgment or settlement not ‘designated as payments for
medical care.’” Id. at 639, 644.
In light of the clear mandate against an
“irrebuttable, one-size-fits-all” presumption, we next
ask whether Florida’s scheme directly conflicts with it.
“State law is pre-empted ‘to the extent of any conflict
with a federal statute,’” Hillman v. Maretta, 569 U.S.
483, 490 (2013) (quoting Crosby v. Nat’l Foreign Trade
Council, 530 U.S. 363, 372 (2000)), but no further. We
find that the Florida scheme differs significantly from
the North Carolina scheme that the Wos Court found
was preempted, and we conclude that it does not
directly conflict with federal law.
Unlike North Carolina, which imposed an
irrebuttable formulaic allocation, Florida “provide[s] a
mechanism for determining whether” its formulaic
allocation is a reasonable approximation of a recipient’s

App. 26
medical expenses. See Wos, 568 U.S. at 637. Under the
Florida Medicaid Third-Party Liability Act,
a recipient . . . may contest the amount
designated as recovered medical expense
damages payable to the agency pursuant to the
formula specified in paragraph (11)(f) by filing a
petition . . . with the Division of Administrative
Hearings. . . . In order to successfully challenge
the amount designated as recovered medical
expenses, the recipient must prove, by clear and
convincing evidence, that the portion of the total
recovery which should be allocated as past and
future medical expenses is less than the amount
calculated by the agency pursuant to the
formula set forth in paragraph (11)(f).
Fla. Stat. § 409.910(17)(b).
We reject the district court’s assertions that
Florida’s allocation is “nearly impossible to rebut” and
“quasi-irrebuttable.” Nothing in the statute or the
record supports those assertions. “Clear and convincing
evidence” is not an “impossible” evidentiary standard.
It is a familiar and widely used standard of proof in
Florida civil proceedings, requiring evidence “of such
weight that it produces in the mind of the trier of fact
a firm belief or conviction, without hesitancy, as to the
truth of the allegations sought to be established.” S.
Fla. Water Mgmt. Dist. v. RLI Live Oak, LLC, 139 So.
3d 869, 872–73 (Fla. 2014) (listing types of cases where
this standard applies). Most importantly for purposes
of our preemption analysis, nothing about this
standard of proof stands in clear conflict with federal
law under Wos.

App. 27
Our conclusion that Florida’s statutory formula is
not preempted by federal law finds support in the
Supreme Court’s extensive dicta in Wos about what
North Carolina could have done differently to avoid a
conflict with federal law. See Wos, 568 U.S. at 641–43.
The Court opined that “a judicial or administrative
proceeding” could be an appropriate way to allocate a
settlement. Id. at 638–39. Noting that “States have
considerable latitude to design administrative and
judicial procedures to ensure a prompt and fair
allocation of damages,” the Court favorably pointed out
several states’ specific procedures, all involving
“rebuttable presumptions and adjusted burdens of
proof.” Id. at 641. Oklahoma’s procedure, which it
labeled “more accurate” than North Carolina’s, is
similar to Florida’s: it uses a formula that allocates 100
percent of a settlement after attorney’s fees, and then
allows the recipient to rebut that allocation by clear
and convincing evidence. See id. (citing Okla. Stat. tit.
63 § 5051.1(D)(1)(d)).
Because we find that Florida’s approach to
threading the needle of federal third-party
reimbursement requirements does not directly conflict
with them, we conclude that it is not preempted.
IV. CONCLUSION
Gallardo’s motion to dismiss this appeal as moot is
DENIED. The judgment of the district court is
REVERSED and REMANDED.
WILSON, Circuit Judge, concurring in part and
dissenting in part:

App. 28
Today this court tells Florida that it can pocket
funds marked for things it never paid for.1 The court
does so even though the Medicaid Act says differently,
the United States Supreme Court says differently, and
most other courts say differently. Although I agree with
the majority that federal law does not preempt
Florida’s allocation process (though I use a slightly
different analysis, as I explain in Part II), I disagree
with its view that federal law does not preempt
Florida’s self-proclaimed right to third-party payments
for future medical care. On this larger issue, I must
dissent.
I.
There’s no need to repeat the majority’s rundown of
the dizzying Medicaid Act. But as the Act is a
labyrinth, a quick glossary might help. There are five
provisions to remember. Two are general rules; three
are exceptions.
First is the anti-lien provision. This section says
that no lien “may be imposed against the property of
any individual prior to his death on account of medical
assistance paid or to be paid on his behalf under the
[s]tate plan [with exceptions not relevant here].” 42
U.S.C. § 1396p(a)(1).

1

The majority calls the defendant “FAHCA” throughout its
opinion. Since FAHCA is conducting business for the state, and
since the Medicaid Act speaks in terms of what a state must do to
comply with the Act, I will refer to FAHCA as “Florida” or “the
state” for simplicity.

App. 29
Second, the anti-recovery provision. It says that no
“adjustment or recovery of any medical assistance
correctly paid on behalf of an individual under the
[s]tate plan may be made [also with exceptions not
relevant here].” Id. § 1396p(b)(1). These provisions are
the general rules. Read “literally and in isolation,” they
stop states from picking at a Medicaid recipient’s tort
recovery. See Ark. Dep’t of Health & Human Servs. v.
Ahlborn, 547 U.S. 268, 284 & n.13 (2006).
That brings us to the exceptions, and the third
provision to remember: the third-party-liability
provision. This section tells the state to first “take all
reasonable measures to ascertain the legal liability of
third parties . . . to pay for care and services available
under the plan.” 42 U.S.C. § 1396a(a)(25)(A). If the
state finds “after medical assistance has been made
available on behalf of the [recipient]” that a third party
is liable for the recipient’s injuries, the state must
“seek reimbursement for such assistance to the extent
of such legal liability.” Id. § 1396a(a)(25)(B).
Fourth up is the general assignment provision. Id.
§ 1396k(a)–(b). This provision generally entitles the
state to the recipient’s right to “payment for medical
care from any third party.” Id. § 1396k(a)(1)(A). It then
notes that the state can keep those payments “as is
necessary to reimburse it for medical assistance
payments made on behalf of an individual with respect
to whom such assignment was executed . . . and the
remainder of such amount collected shall be paid to
such individual.” Id. § 1396k(b).
The last exception—the crux of this appeal—is the
specific assignment provision. It applies “to the extent

App. 30
that payment has been made under the [s]tate plan for
medical assistance in any case where a third party has
a legal liability to make payment for such assistance.”
Id. § 1396a(a)(25)(H). In that event, the state must
have in effect laws that, “to the extent that payment
has been made under the [s]tate plan for medical
assistance for health care items or services furnished
to an individual,” give the state the right to recover
third-party payments “for such health care items or
services.” Id.2
These provisions, taken together, set up the state
recovery scheme. The general rules protect a Medicaid
recipient’s recovery from the state; the exceptions list
the few times when the state can claw into a recipient’s
coffers. But this point bears repeating: Without an
exception, the general rules barring state recovery
apply. See Ahlborn, 547 U.S. at 284–85. The state can
recover only what the exceptions say it can recover. See
id.
In Ahlborn, the Supreme Court clarified the narrow
reach of the exceptions. It held that the exceptions
2

The majority uses different names for the last two provisions. It
calls the general assignment provision the “assignment provision”
and references the specific assignment provision only by its
statutory code. Given how important these provisions are here, I
respectfully diverge from the majority’s framing and will use
distinct labels for clarity. And despite the majority’s suggestion in
footnote 14 (and as we will discuss more below), the specific
assignment provision does focus on “what a State must require an
individual to assign”—it tells the state that it must have laws
assigning to it the recipient’s right to payment for past medical
care. So this label is accurate and will help us make sense of the
Medicaid Act.

App. 31
entitle the state to only the part of a Medicaid
recipient’s recovery that represents payment for
“medical care.” Id. at 282. That makes sense—under
the Medicaid program, the state pays for only a
recipient’s medical care, and so the state can recover
from only the part of a recipient’s recovery that
represents payment for medical care. The question here
is whether the state can reach the part of a recipient’s
recovery that represents payment not for past medical
care, but for future medical care—care that the state
has never paid for.
The answer is no. Under the Medicaid Act, the state
can reimburse itself only from the amount of the
recovery that represents payment for past medical
care. Federal law preempts state law to the contrary.
See PLIVA, Inc. v. Mensing, 564 U.S. 604, 617 (2011)
(“Where state and federal law directly conflict, state
law must give way.”).
Despite the majority’s efforts, the question is not
close. The statute’s plain text demands this result. As
the United States Supreme Court and most other
courts have recognized.3
3

Before we go on, let’s briefly discuss what this dissent is not
about. The majority starts its analysis by rejecting a bad
argument—that the state is limited to the part of the settlement
that the recipient and the tortfeasor unilaterally allocated as
payment for past medical care. See Majority Op. at 12–13. The
majority and I agree on this point. As I explain in Part II, the
Supreme Court has made clear that the recipient cannot
unilaterally allocate away the state’s interest in the part of her
recovery that represents payment for past medical care. See infra
at 53–61. To protect against abusive unilateral allocations, the
Court has armed the state with powerful tools to determine what

App. 32
A.
The gist of the majority’s holding is that its hands
are tied: Because the exceptions do not clearly limit the
state to the part of the recovery that represents
payment for past medical care, respect for state law
precludes conflict preemption. The problem for the
majority is that the exceptions do clearly limit the state
to the part of the recovery that represents payment for
past medical care. In fact, they’re riddled with
references to the past.
Consider the specific assignment provision. It
declares that when a state acquires a recipient’s right
to third-party payment, the state acquires only the
right to payment for the recipient’s past medical
care—the only care for which the state has paid:
[T]o the extent that payment has been made
under the [s]tate plan for medical assistance in
any case where a third party has a legal liability
to make payment for such assistance, the [s]tate
has in effect laws under which, to the extent that
payment has been made under the [s]tate plan
for medical assistance for health care items or
services furnished to an individual, the [s]tate is
considered to have acquired the rights of such
part of a recovery represents payment for past medical care:
judicial determinations, presumptive allocations, and
administrative hearings. See id. at 53–57. The majority and I
diverge on a different point: Whether, after the state figures out
what part of the recovery represents payment for past medical
care, it can then take from the part of the recovery that represents
payment for future medical care. That is what this dissent is
about.

App. 33
individual to payment by any other party for
such health care items or services . . . .
42 U.S.C. § 1396a(a)(25)(H) (emphasis added).
The paragraph starts with the headline “to the
extent that payment has been made.” Id. (emphasis
added). Then, to eliminate any doubt, it repeats itself:
“[T]o the extent that payment has been made under the
[s]tate plan for medical assistance for health care items
or services furnished to an individual,” the state gets
the right to third-party payments for “such health care
items or services.” Id. (emphasis added). This latter
phrase naturally refers to the only health care items or
services that have been “furnished” to the
recipient—past medical care. See, e.g., Latham v. Office
of Recovery Servs., 2019 UT 51, ¶ 32 (Utah 2019), cert.
denied, Office of Recovery Servs. v. Latham, 140 S. Ct.
852 (2020).
So this exception, in no uncertain terms, says that
the state gets only the right to third-party payments
made for the recipient’s past medical care—the only
care for which the state has paid. In the settlement
context, the “payments made for the recipient’s past
medical care” are, as all agree, the parts of the
settlement that represent payment for past medical
care. The specific assignment provision thus limits the
state to that part of the recovery. And the legislative
history confirms that this is the right reading. See H.R.
Rep. No. 103-111, 210 (1993) (“The Committee bill
provides that, in any case where a third party has a
legal liability to make payment for services provided to
a Medicaid beneficiary, a State is subrogated to the
right of any other party to payment for such services to

App. 34
the extent that payment has been made by the
Medicaid program.” (emphasis added)).
B.
Rather than tackle this seemingly clear directive,
the majority claims that the very existence of a
contrary interpretation creates ambiguity, barring
conflict preemption. But that’s true only if the contrary
reading is reasonable. See Houghton v. Payne, 194 U.S.
88, 99 (1904) (holding that a statute is ambiguous
when it is “susceptible of two reasonable
interpretations”); Freemanville Water Sys., Inc. v.
Poarch Band of Creek Indians, 563 F.3d 1205, 1210
(11th Cir. 2009) (noting that the “very definition of
ambiguity” is the existence of “two reasonable,
competing interpretations” (emphasis added)). The
majority’s reading is not.
Aside from a claim that the specific assignment
provision does not textually distinguish between past
and future medical care (which, as explained before, it
does), the majority hangs its hat on the general
assignment provision. This provision, unlike the
specific assignment provision, does not refer to the
past. It mentions only that a recipient assigns to the
state the recipient’s right to “payment for medical care
from any third party.” 42 U.S.C. § 1396k(a)(1)(A). Put
another way, the general assignment provision says
that the state gets the recipient’s right to third-party
payments for all medical care, past and future.
Yet a simple rule settles these inconsistencies: The
more specific provision controls. See Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of

App. 35
Legal Texts 183 (2012) (noting that when “there is a
conflict between a general provision and a specific
provision, the specific provision prevails”). To be sure,
the general assignment provision describes the state’s
right to third-party payments for medical care
generally. But the specific assignment provision
describes what happens when the state seeks to
recover third-party payments for medical care that the
state fronted for the recipient—exactly the issue
presented here. See Latham, 2019 UT 51, ¶ 35.
And specificity isn’t the only problem for the
majority; another is time. As Florida highlights in its
briefs, Congress passed the specific assignment
provision 16 years after the general assignment
provision. Compare Medicare-Medicaid Anti-Fraud and
Abuse Amendments, Pub. L. No. 95-142, 91 Stat. 1175
(1977) (enacting the general assignment provision),
with Omnibus Budget Reconciliation Act of 1993, Pub.
L. No. 103-66, 107 Stat. 312 (1993) (enacting the
specific assignment provision). It is thus the most
recent word on the subject. And when interpreting
statutes, “we rely on the long-standing principle that,
if two statutes conflict, the more recent or more specific
statute controls.” Tug Allie-B, Inc. v. United States, 273
F.3d 936, 948 (11th Cir. 2001). The specific assignment
provision wins on both counts. So it is the more
on-point authority.
The majority has a different take, though. It says
that the specific assignment provision simply “provides
for what the state” can recover, not from where the
state can recover. See Majority Op. at 16–19. In the
majority’s eyes, the specific assignment provision

App. 36
merely explains that the state can recover only up to
the amount that it paid for past medical care. It does
not, per the majority, say that the state can recoup that
amount from only the part of the recovery that
represents payment for past medical care.
And yet that can’t be right. For starters, both the
general assignment provision and the third-partyliability provision already explain “what” the state can
recover—each makes clear that the state can reimburse
itself only up to the amount that it spent on past
medical care. The general assignment provision says
that the state can take a recipient’s third-party
payments only as “necessary to reimburse [the state]
for medical assistance payments made [for the
recipient] . . . the remainder of such amount collected
shall be paid to [the recipient].” 42 U.S.C. § 1396k(b).
And the third-party-liability provision—which comes
before the specific assignment provision in 42 U.S.C.
§ 1396a(a)(25)—tells us that when the state has paid
for “medical assistance,” the state gets reimbursement
“for such assistance.” See id. § 1396a(a)(25)(B).
Layman’s terms: When the state has paid for the
recipient’s past medical care, it is entitled to
reimbursement only for the cost of the recipient’s past
medical care. Why, then, would Congress reiterate (for
a third time) this bedrock principle in the specific
assignment provision? The answer is that it wouldn’t.
And we should avoid any reading that relies on this
redundancy. See United States v. Fuentes-Rivera, 323
F.3d 869, 872 (11th Cir. 2003) (per curiam) (explaining
that we interpret statutory provisions “so that no
words shall be discarded as being meaningless,
redundant, or mere surplusage”).

App. 37
At any rate, we need not turn to tools of statutory
interpretation to knock down the majority’s
construction; the statute’s plain language is enough.
The specific assignment provision says that the state
gets only the recipient’s right “to payment by any other
party” for past medical care. 42 U.S.C.
§ 1396a(a)(25)(H) (emphasis added). This means that
the state acquires only the recipient’s right to whatever
payment the third party paid for past medical care. Put
differently, the state can recover from only the part of
the settlement (i.e., the payment) that was paid for
past medical care. Florida doesn’t somehow get the
right to pick at other third-party payments, like the
part of the settlement paid for future medical care.
An example confirms that this reading is right.
Imagine that you own a fruit stand. One day, you sell
your friend $5 worth of apples and $5 worth of oranges
for a total of $10. Now let’s also say that you owe your
town $10. To recoup the debt, your town passes a law
entitling the town to your rights “to payment by any
other party” for apples. Putting aside that you might
vote your city council out of office in the next election,
you would naturally read this law to give your town the
right to $5—the amount of the “payment” that your
friend gave you for the apples. You wouldn’t think that
the town could take the full $10 dollars that your friend
paid you, because part of that payment was paid for
oranges. And it doesn’t matter that you owe the town
$10—the town limited itself to third-party payments
paid for apples, and so that is all it can recover.
The specific assignment provision is no different. It
entitles the state to recover from only third-party

App. 38
payments for past medical care. So the state gets the
right to recover from whatever amount the third party
paid for past medical care, no matter if the recipient’s
past medical bills exceed the part of the settlement
paid for past medical care. See id.
So despite the majority’s effort to make this a
dispute over what the state may recover, that’s not
what we’re debating—everyone agrees that the state
can recover only up to the amount that it paid for the
recipient’s past medical care. We are debating where
the state can recover those expenses from, or said
differently, whether the state is limited to reimbursing
itself from the part of the recipient’s settlement that
represents payment for past medical care. The plain
language of the specific assignment provision answers
that question: The state can take from only the part of
the settlement paid for past medical care. Nothing
more.4

4

For what it’s worth, this rule makes good sense. Yes, this
provision may prevent the state from reimbursing itself fully for
the amount that it spent on the recipient’s past medical care. This
is because the part of a recipient’s tort recovery paid for past
medical care could be less than the actual amount of those costs.
Yet the Medicaid Act makes clear that the state has a right to
recover only for what it has paid—the recipient’s past medical
costs. So the Act necessarily fractionalizes the state’s recovery to
encompass only the fraction of the settlement that represents
those costs. Otherwise, the state could swallow parts of the
settlement that have nothing to do with the benefits that the state
has fronted for the recipient (here, the part of the settlement
representing payment for the recipient’s future medical care). As
I explain more below, the Supreme Court has rejected that
outcome—the outcome that the majority condones here—calling it
“absurd and fundamentally unjust.” See Ahlborn, 547 U.S. at 288

App. 39
And so contrary to the majority’s footnote 15, the
general assignment provision and the specific
assignment provision are not in harmony. The general
assignment provision says that the state gets the right
to all third-party payments made for medical care. See
id. § 1396k(a)(1)(A). The specific assignment provision
says that the state gets the right to only third-party
payments made for past medical care. See id.
§ 1396a(a)(25)(H). These provisions cannot be
reconciled. Since the specific assignment provision is
more recent and more on point, see supra at 34–36, it
applies over the general assignment provision. And
with the general assignment provision vanished, the
majority’s reading has no leg to stand on.
C.
Still, the majority might say, the text of the
Medicaid Act is just not clear enough to warrant
conflict preemption. It is, after all, a Byzantine
enterprise. Ga., Dep’t of Med. Assistance ex rel. Toal v.
Shalala, 8 F.3d 1565, 1568 (11th Cir. 1993). Luckily
though, if there were ever a riddle about what this text
means, Ahlborn unraveled it.
1.
In Ahlborn, the Supreme Court analyzed the
interplay between the general rules and the exceptions.
Faced with a claim that a state can recoup its debt
from any part of a recipient’s recovery, the Court said

n.19. And as I also explain more below, the state has several
Court-sanctioned tools to protect against the recipient allocating
away the state’s limited recovery interest. See infra at 53–57.

App. 40
no. It held, in a nine-to-nothing opinion, that the Act’s
plain text “makes clear” that when the state has paid
for “health care items or services furnished” to a
recipient, “the [s]tate must be assigned” only “the
rights of the recipient to payment by any other party
for such health care items or services.” See Ahlborn,
547 U.S. at 281–82 (alterations accepted) (emphasis
omitted). Put another way, the state can claim only
third-party payments for medical care that the state
paid for first. See id.; accord supra at 28–39.
Although the Supreme Court didn’t feel the need to
spell it out, the logical and necessary extension of this
rule is that the state can recover only from third-party
payments marked for past medical care. Indeed,
Ahlborn held that the exceptions allow the state to take
only from a recipient’s recovery for medical care
because medical care was the only thing that the state
had paid for. See id. By extension, the exceptions allow
the state to take only from a recipient’s recovery for
past medical care because past medical care is the only
thing that the state has paid for.
The Court made this point clear through an
example. It analogized to a state-court case in which
the state paid workers’-compensation benefits to the
spouse of an employee whose injuries were caused by a
third-party tortfeasor. See id. at 288 n.19 (citing
Flanigan v. Dep’t of Labor & Indus., 869 P.2d 14, 17
(Wash. 1994)). After the spouse recovered
loss-of-consortium damages from the tortfeasor, the
state sought the rights to the spouse’s
loss-of-consortium damages to pay itself back for the
workers’-compensation benefits. See Flanigan, 869 P.2d

App. 41
at 15. The Washington Supreme Court rejected this
bid, explaining that the state could not reach the
spouse’s loss-of-consortium damages, because the state
did not “cover” the spouse’s “damages for loss of
consortium.” Id. at 17. Ahlborn approved of this result,
recognizing that the state agency there could not
“share” in the part of the recovery representing
loss-of-consortium damages, because the state had
“provided no compensation” for those damages. See 547
U.S. at 288 n.19. Such a result would be “absurd and
fundamentally unjust.” See id.
So too with settlement proceeds marked for a
recipient’s future medical care. Florida has never paid
for the recipient’s future medical care. And thus
Florida cannot “share” in the recipient’s right to
settlement proceeds paid for future medical care. See
id. Such a result would be “absurd and fundamentally
unjust.” See id.
Another Ahlborn example underscores this rule.
After explaining that the state can recover only from
settlement proceeds representing payment for “health
care items or services” that the state paid for first, the
Court emphasized that “the statute does not sanction
an assignment of rights to payment for anything other
than medical expenses—not lost wages, not pain and
suffering, not an inheritance.” Id. at 281. Although “the
Court did not include ‘future medical expenses’ in that
list, it would have fit.” Latham, 2019 UT 51, ¶ 36.
Because just as the state has fronted no part of a
recipient’s wages, pain and suffering, or missing
inheritance, the state has fronted no part of a
recipient’s future medical bills. The state has paid for

App. 42
only the recipient’s past medical bills. And so the state
can lay claim to only that part of the recipient’s
recovery. See Ahlborn, 547 U.S. at 281.
The bottom line then is this. Ahlborn teaches that
the Act’s past-tense references aren’t just references:
They’re restrictions. See id. The Act’s nods to the past
limit the state’s recovery to proceeds earmarked for
past medical expenses—the only expenses that the
state has ever paid. See 42 U.S.C.
§ 1396a(a)(25)(A)–(B), (H).
2.
Against this backdrop, the majority’s semantics
stretch too thin. It says that since Ahlborn held that
the state could recover from third-party payments
made for “medical care,” but never used the magic
words “past medical care,” federal law does not clearly
forbid recovery from third-party payments made for
future medical care. But even if the actual letter of
Ahlborn doesn’t command preemption (though it
does—more on that later), Ahlborn’s logic necessarily
compels it. Ahlborn’s basic premise is that the state can
recover only from third-party payments made for debts
that the state paid for the recipient. This generally
means medical care. But it specifically means past
medical care—the only health care items or services
that the state has “furnished.” See id.
§ 1396a(a)(25)(H).
And let’s take a step back here. Why would the
Supreme Court go through all this trouble to explain
that the state can’t take money marked for things that
it never paid for, only to then let the state take money

App. 43
marked for things that it never paid for? Yet that’s the
rule the majority mints today. Simply because the
Court never used the term “past medical care” (even
though that’s clearly what it meant), the majority says
the state can pluck payments paid for a recipient’s
future medical burdens—burdens for which the state
has never paid and may never pay.
That rule flouts Ahlborn. And despite the majority’s
gloss, the most logical construction is what Congress in
fact did: limit the state to the part of the recovery that
encompasses what the state actually “furnished”—past
medical care.
D.
In any event, this isn’t an open question: Ahlborn
held that federal law limits the state to the part of the
settlement that represents payment for past medical
care.
Here’s why. The plaintiff’s argument throughout
Ahlborn was that the state “is limited to that portion of
the settlement proceeds which fairly represents the
past medical expense component of her recovery.”
Ahlborn v. Ark. Dep’t of Human Servs., 280 F. Supp. 2d
881, 883 (E.D. Ark. 2003) (emphasis added); see also
Ahlborn v. Ark. Dep’t of Human Servs., 397 F.3d 620,
622 (8th Cir. 2005) (“Ahlborn brought suit seeking a
declaratory judgment, arguing that [the state] can only
recover that portion of her settlement representing
payment for past medical expenses.” (emphasis added)).
To move the case along, the state and the recipient
stipulated that the part of the settlement representing
payment for past medical care was $35,581.47. See

App. 44
Ahlborn, 547 U.S. at 274 (“To facilitate the District
Court’s resolution of the legal questions presented, the
parties stipulated that . . . if Ahlborn’s construction of
federal law was correct, [the state] would be entitled to
only the portion of the settlement ($35,581.47) that
constituted reimbursement for medical payments
made.” (emphasis added)).5
The Supreme Court later held that the exceptions
limit the state’s recovery to the part of the settlement
representing payment for medical care. See id. at 291–
But in doing so, it also held that “Federal Medicaid law
does not authorize [the state] to assert a lien on
Ahlborn’s settlement in an amount exceeding
$35,581.47”—the amount of the settlement
representing payment for past medical care. Id. at 292
(emphasis added).

5

The lower court opinions also confirm that when the Supreme
Court said that the parties stipulated to how much of the
settlement represented “medical payments made,” it was referring
to the parties’ agreement about how much of the settlement
represented payment for past medical care. The Eighth Circuit,
for instance, explained that the “parties stipulated” that
$35,581.47 was “a fair representation of the [part] of the
settlement constituting payment by the tortfeasor for past medical
care.” Ahlborn, 397 F.3d at 622. And the district court made clear
that if the recipient there were to prevail on her claim that the
state’s recovery “is limited to that portion of the settlement
proceeds which fairly represents the past medical expense
component of her recovery,” then the recipient would recover
$35,581.47—the amount of the settlement that the parties agreed
as representing payment for past medical care. Ahlborn, 280 F.
Supp. 2d at 883.

App. 45
That decides the issue. Although the Court didn’t
draw out that its use of the term “medical care” meant
“past medical care,” that’s what the plaintiff argued
throughout the case, and that must be what the Court
held. Otherwise, it could not have ruled that the state
could take only $35,581.47—the amount of the
settlement representing payment for past medical care.
It wouldn’t have held that the state can’t assert a lien
“in an amount exceeding $35,581.47”; it would have
held that the state can’t assert a lien “in an amount
exceeding $35,581.47 [plus any amount representing
payment for future medical care].”
That’s not what the Court wrote. And since the
Courts of Appeals are not in the business of assuming
that the Supreme Court made a typo, there’s only one
reasonable conclusion: This query is closed. “Medical
care” means “past medical care.”
The majority puts up two arguments in response;
neither is persuasive. It first notes the
obvious—Ahlborn did not textually distinguish between
past and future medical care. But as explained above,
Ahlborn’s reasoning and its holding—which limited the
state to only the amount that the parties stipulated as
representing payment for past medical care—makes
clear that Ahlborn was talking about past medical care,
not all medical care.
Second, the majority tries to limit Ahlborn to its
facts. See Majority Op. at 20–21. It notes that, in
Ahlborn, the state and the recipient stipulated to how
much of the settlement represented payment for past
medical care. Here, in contrast, Florida did not consent

App. 46
to the allocation proffered by Gallardo and the
tortfeasor and has not agreed to a stipulated allocation.
To start, it is unclear why this distinction makes a
difference. If anything, the spotlight the majority
shines on the stipulation in Ahlborn only proves my
point: The state there agreed that about $35,000 of the
settlement represented payment for past medical care.
For all intents and purposes, then, the amount of the
settlement allocated for past medical care equaled
about $35,000. After this, the Supreme Court ruled
generally that the Medicaid Act allowed the state to
recover from only the part of the settlement allocated
for medical care. And then the Court held specifically
that the state could recover only about $35,000 of the
settlement—the amount of the settlement allocated for
past medical care. As I explained before, the only way
the Court could have reached that result is if it
concluded that the state may recover from only the
amount of the settlement that represents payment for
past medical care. See supra at 43–45.
But in any event, if the majority is claiming that
Ahlborn doesn’t apply here because Florida has not
consented or stipulated to an allocation, the majority is
mistaken. It cites nothing from Ahlborn to support
such a claim. And in fact, the Fourth Circuit rejected
this exact argument. See E.M.A. ex rel. Plyler v.
Cansler, 674 F.3d 290, 307 (4th Cir. 2012), aff’d sub
nom. on other grounds Wos v. E.M.A. ex rel. Johnson,
568 U.S. 627 (2013). There the district court endorsed
a “narrow interpretation of Ahlborn,” limiting it to
cases where the parties (i.e., the recipient and the
state) agreed on an allocation or where there was a

App. 47
prior judicial determination about the correct
allocation. See id. The Fourth Circuit reversed,
rejecting this “crabbed application” of Ahlborn. Id. It
noted that the Court’s ruling “in no way” turned on
“whether there has been a prior determination or
stipulation as to the medical expenses portion of a
Medicaid recipient’s settlement.” Id. Rather, “Ahlborn
is properly understood to prohibit recovery by the state
of more than the amount of settlement proceeds
representing payment for medical care already
received.” Id. That rule applies no matter if Florida has
stipulated to an allocation. See id.; see also Giraldo v.
Agency for Health Care Admin., 248 So. 3d 53, 56 (Fla.
2018) (holding that a plain reading of the Medicaid Act
preempts Florida’s practice of garnishing more than
the part of a settlement representing payment for past
medical care, even when Florida has not stipulated to
the recipient’s proffered allocation); see id. at 57–59
(Polston, J., concurring in part and dissenting in part)
(reaching the same conclusion solely due to the Court’s
holding in Ahlborn, and concluding that Ahlborn
applies even when Florida has not stipulated to the
recipient’s proffered allocation).
E.
That our court breaks with most of the country
today only solidifies that this question is not close.
Because though the majority claims that a lack of
clarity bars conflict preemption, most other courts have
had no trouble reading this supposed crystal ball. Far
and away, most courts have held that the Medicaid Act
clearly preempts state law allowing state recovery from
settlement proceeds paid for future medical care. See,

App. 48
e.g., Plyler, 674 F.3d at 307, 312; McKinney ex rel. Gage
v. Philadelphia Hous. Auth., 2010 WL 3364400, at *9
(E.D. Pa. Aug. 24, 2010); Price v. Wolford, 2008 WL
4722977, at *2 (W.D. Okla. Oct. 23, 2008); Sw.
Fiduciary, Inc. v. Ariz. Health Care Cost Containment
Sys. Admin., 249 P.3d 1104, 1108–10 (Ariz. Ct. App.
2011); In re Estate of Martin, 574 S.W.3d 693, 696 (Ark.
App. 2019), reh’g denied (Ark. App. Apr. 24, 2019);
Bolanos v. Superior Court, 87 Cal. Rptr. 3d 174, 179–81
(Cal. App. 4th 2008); Giraldo, 248 So. 3d at 56; Lugo ex
rel. Lugo v. Beth Israel Med. Ctr., 819 N.Y.S.2d 892,
895–96 (N.Y. Sup. Ct. 2006); In re E.B., 729 S.E.2d 270,
453 (W. Va. 2012) (“After a thorough examination of
the Ahlborn decision and the language contained in
[the West Virginia statute] . . . we find that [the
statute] directly conflicts with Ahlborn, insofar as it
permits [the state] to assert a claim to more than the
portion of a recipient’s settlement that represents past
medical expenses.”); Latham, 2019 UT 51, ¶ 20. So
though the majority suggests that this is a close
call—and thus one that inherently precludes conflict
preemption—a countrywide consensus says exactly the
opposite.6
6

A fleeting few have accepted the majority’s view. See I.P. ex rel.
Cardenas v. Henneberry, 795 F. Supp. 2d 1189, 1197 (D. Colo.
2011); Special Needs Tr. for K.C.S. v. Folkemer, 2011 WL 1231319,
at *1 (D. Md. Mar. 28, 2011); In re Matey, 147 Idaho 604, 608
(2009). Yet their analysis is sparse, and they ignore the points
made above. In fact, one court seemed to hold that a recipient’s
likelihood of staying on Medicaid somehow influences the
construction of the Medicaid Act—a plainly incorrect view. See
Henneberry, 795 F. Supp. 2d at 1197 (“Because Plaintiff intends on
staying on Medicaid, any funds allocated for future medical
expenses should rightfully be exposed to the state’s lien so that

App. 49
The majority contends that, despite this federaland state-court consensus, this “issue is hardly a
settled one.” Majority Op. at 17–18 n.16. It disregards
most the cases I cite above, altogether ignoring the
district-court and state-court cases. Id. Instead, it
zeroes in on just the Fourth Circuit case, dismissing
that court as interpreting Ahlborn “a little loosely.” Id.
At the gate, I’m puzzled by the ease in which the
majority rejects well-reasoned opinions from federal
district courts and state appellate courts—three of
which come from state supreme courts. But at any rate,
the majority is wrong to dismiss the Fourth Circuit
case. Plyler’s interpretation of Ahlborn was
unequivocal: “[F]ederal Medicaid law limits a state’s
recovery to settlement proceeds that are shown to be
properly allocable to past medical expenses.” 674 F.3d
at 312 (emphasis added). Although that holding wasn’t
the only issue in the case, it was essential to the Fourth
Circuit’s analysis (and ultimate rejection) of the district
court’s interpretation of the Medicaid Act. See id. at
307. So we cannot dismiss the Fourth Circuit’s
interpretation of Ahlborn as mere dicta. See United
States v. Gillis, 938 F.3d 1181, 1198 (11th Cir. 2019)
(per curiam) (explaining that dicta is “a statement that
neither constitutes the holding of a case, nor arises
from a part of the opinion that is necessary to the
holding of the case”). It is persuasive authority from a
sister circuit—apparently the only other circuit to have
addressed this issue.

the state can be reimbursed for its past medical payments.”). At
any rate, these cases are in the minority and pale against the
majority trend.

App. 50
The majority also forgets to add an important piece
of persuasive authority to the mix: the Supreme Court’s
recent denial of certiorari in Office of Recovery Services
v. Latham, 140 S. Ct. 852 (2020). In Latham, the
Supreme Court of Utah issued a detailed opinion that
unanimously rejected the majority’s minority-trend
interpretation of the Medicaid Act, adopting instead
the majority-trend position that I have taken here. See
2019 UT 51. The Court’s denial of certiorari there is by
no means a binding holding. But given the widespread
consensus described above, one would think that the
Court would have tackled this issue had it thought that
most courts were wrong and that, instead, the minority
view was right. The Court’s pass on the issue thus
suggests that the majority view, not the majority’s
view, is the right one.
Finally, you may have noticed near the end of the
string cite above that even Florida has rejected the
majority’s application of the Medicaid Act to Florida
law. See Giraldo, 248 So. 3d at 56. In short order, all
seven of Florida’s Supreme Court Justices held that the
Medicaid Act trumps Florida’s recovery plan; six
because the text clearly preempts, one because Ahlborn
expressly decided this issue. Id. at 56– 59. Although
Florida’s take on federal law doesn’t bind us, its
invalidation of its own law should give us pause.
Indeed, for an opinion that claims to rest on respect for
Florida’s rights, overruling a unanimous panel of
Florida’s Supreme Court seems inconsistent.
F.
To close, I’ll note that the majority’s ruling has laid
the foundation for federal-state forum shopping.

App. 51
Florida Medicaid recipients will now head to state
administrative court to benefit from the Florida
Supreme Court’s holding in Giraldo (in fact, Florida
law compels recipients to challenge the state’s lien in
state administrative court, see Fla. Stat.
§ 409.910(17)(b)). Meanwhile, Florida may seek
declaratory relief in federal court to bypass Giraldo and
benefit from our holding in Gallardo. That holding will
bind our district courts to declare that the Medicaid Act
does not preempt Florida’s attempt to recover from the
part of the recipient’s recovery that represents
payment for future medical care. And then Florida will
take the federal-court judgment to state court and
argue that it has a preclusive effect on the recipient.
This situation is far from hypothetical—it’s exactly
what’s happening here. The parties agree that the
reason Giraldo has not mooted this case is that Florida
intends to use the preclusive effect of our judgment in
state administrative court. Although the
administrative court will decide in the first instance
whether preclusion applies, it will apply federal
preclusion law. See Philadelphia Fin. Mgmt. of San
Francisco, LLC v. DJSP Enters., Inc., 227 So. 3d 612,
616 (Fla. 4th DCA 2017). And under federal law, it
seems likely that res judicata will apply. See In re Piper
Aircraft Corp., 244 F.3d 1289, 1296 (11th Cir. 2001)
(noting that res judicata generally bars relitigation
when (1) there is a final judgment on the merits; (2) the
decision was rendered by a court of competent
jurisdiction; (3) the parties, or those in privity with
them, are identical in both suits; and (4) the same
cause of action is involved in both cases). So,
perversely, the state administrative court will likely

App. 52
apply the Eleventh Circuit’s decision in Gallardo,
rather than the Florida Supreme Court’s decision in
Giraldo.
I see nothing to stop Florida from taking this tact
again. And thus the majority, by cutting a chasm
between federal and Florida law, has sown the seeds
for forum shopping. Recipients will rush to state court.
Florida will rush to federal court. And whoever gets the
ruling first will win. That is a stereotypical forumshopping scenario. And it is an arbitrary outcome that
warrants either en banc or Supreme Court review.
*

*

*

In the end, the majority says that it can’t make
heads or tails of the Medicaid Act, so the tie goes to
Florida. That is wrong. Conflict preemption must be
clear, no doubt, but Congress doesn’t need to etch its
intent in statutory stone. Said differently, you don’t
need a weatherman to know which way the wind blows.
Given the text’s plain preference for the past, the logic
and letter of Ahlborn, and the sound reasoning of most
courts across the country (including Florida’s Supreme
Court), it’s clear that federal law preempts Florida’s
practice of garnishing the part of a recipient’s recovery
paid for future medical care. And so I dissent.
II.
That all said, I agree with the majority that
Florida’s allocation scheme (i.e., the way that it decides
how much of the settlement represents payment for
past medical care) complies with federal law. Still,
Florida’s plan is not perfect. On this record, federal law
would preempt Florida’s allocation formula if it stood

App. 53
alone. But because Florida allows the recipient to rebut
the presumptive allocation in an administrative
proceeding, and because Gallardo has not shown that
the presumptive allocation is in fact irrebuttable,
Florida’s process complies with the Medicaid Act.
A.
In Wos, the Supreme Court reaffirmed that the
Medicaid Act preempts state laws that allow the state
to claim part of a recipient’s tort recovery not
designated as payments for past medical care. See 568
U.S. at 636. But the Court recognized a problem: It’s
not always clear what part of a tort recovery represents
payment for past medical care. See id. at 640. So how
does the state divvy up an ambiguous recovery in a way
that complies with the Act? Although the Court did not
provide a surefire path around preemption, it hinted at
two ways through which the state might winnow out
past medical costs: an easy way and a hard way. See id.
at 636– 43. 7
The easy way to avoid preemption is for the state to
have a proceeding to decide the correct allocation. See
id. at 638–39 (expressing repeatedly the Court’s
preference for individual adjudication over a
one-size-fits-all formula). The tribunal there can decide

7

Of course, Wos did not limit the ways that a state might comply
with the Medicaid Act. To the contrary, the Court left open the
possibility that other administrative methods could comply with
federal law, so long as those methods do not let the state claim any
part of a recipient’s recovery allocated for anything besides past
medical care and do not violate other Medicaid objectives. See Wos,
568 U.S. at 636.

App. 54
the right way to divide the tort recovery, with an eye
toward how much the recipient might have received for
past medical care had the case gone to trial. See id. at
640 (stating that although a “fair allocation” of an
ambiguous recovery “may be difficult to determine,”
trial judges and lawyers “can find objective
benchmarks to make projections of the damages the
plaintiff likely could have proved had the case gone to
trial”).
To simplify this process, the state can also establish
a presumptive allocation for how much of the recovery
represents past medical costs, so long as the challenger
can rebut that presumption in a proceeding. See id. at
641–42 (describing several state presumption-based
allocation methods as “more accurate” than North
Carolina’s law and noting that North Carolina “might
also consider a different [allocation method] along the
lines of what other [s]tates have done in Medicaid
reimbursement cases”). But this is key: If the state
uses a presumptive allocation, the presumption must
in fact be rebuttable. See id. at 639. “An irrebuttable,
one-size-fits-all statutory presumption” violates the
Medicaid Act. See id.
Now, the hard way. Should the state decide that
“case-by-case judicial allocations will prove unwieldy,”
the state can “adopt ex ante administrative criteria for
allocating medical and nonmedical expenses, provided
that these criteria are backed by evidence suggesting
that they are likely to yield reasonable results in the
mine run of cases.” See id. at 643. If the state does so,
it need not hold an allocation proceeding; the
evidence-backed allocation method decides what part

App. 55
of the settlement represents payment for past medical
care. See id. (distinguishing state recovery through ex
ante criteria from state recovery through “case-by-case
judicial allocations”).
The reason this is the hard way is that the state, if
it wants to rely solely on an ex ante allocation method,
must provide evidence that the method will reach a fair
allocation “in the mine run of cases.” See id. In other
words, the state bears the burden of showing that its
method usually works. See id. at 655–56 (Roberts, C.J.,
dissenting) (pointing out that Wos requires that the
state provide “some sort of study substantiating the
idea that [the ex ante allocation method works] in most
cases,” which is “quite odd” given that the Supreme
Court has “never before, in a preemption case, put the
burden on the [s]tate to compile an evidentiary record
supporting its legislative determination”).
Though this is a unique standard, it makes sense.
Even a skim through Wos reveals that the Court favors
individualized determinations over broad-brush
algorithms. See id. at 638–43 (making repeated
reference to individual adjudications, but spending just
two sentences on ex ante procedures). And for good
reason: Without a proceeding to check its work, a
formulaic allocation may let the state reach parts of a
recipient’s tort recovery not marked for past medical
costs. See id. at 636. The Court thus held that if a state
wants to rely on an ex ante allocation method alone
(like an allocation formula), it needs to prove that the
method typically leads to a reasonable allocation for
past medical costs. See id. at 643.

App. 56
B.
Given these rules, Florida’s formula—standing
alone as an ex ante allocation method—does not comply
with Wos. This is because the state has not shown that
its formula works “in the mine run of cases.” See id. at
643. Nowhere in the record does Florida put forth
studies, expert analysis, or even anecdotal evidence to
prove that its formula typically reaches a fair result. In
fact, Florida conceded in response to a public-records
request that it has “no responsive documents”
containing any “analysis” on whether the
formula-based allocation “is a reasonable
approximation of the amount recovered for past
medical expenses.” As North Carolina did in Wos,
Florida has adopted a “one-size-fits-all allocation for all
cases,” with no proof that the formula usually works.
See id. at 643. This process, on its own, does not comply
with federal law. And if that were the end of it, federal
law would preempt Florida’s allocation scheme.
C.
Fortunately for Florida, that’s not the end of it,
because Florida’s allocation scheme does not hinge
solely on the formula. Instead, Florida takes the easy
route: It allows the recipient to challenge the formula’s
presumptive allocation in an administrative
proceeding. See Fla. Stat. § 409.910(17)(b). This
presumption-based process balances the state’s interest
in recouping Medicaid payments—and the
administrative realities of doing so—with the
recipient’s property interest in tort recovery. See Wos,
568 U.S. at 641 (noting that states have “considerable
latitude to design administrative and judicial

App. 57
procedures to ensure a prompt and fair allocation of
damages”). And since a recipient can challenge the
presumption in an administrative proceeding, the
process follows Wos’s strong preference for individual
review. See id. at 638–43.
The recipient calls this process bunk because it
requires that the recipient prove that the presumptive
allocation is wrong by clear and convincing evidence.
But the Court has suggested—almost a wink and a
nudge—that federal law does not forbid this level of
burden-shifting. See id. at 641 (describing several
burden-shifting schemes as “more accurate” than North
Carolina’s process, including one in which the recipient
must rebut the presumption by clear and convincing
evidence). And Gallardo has not proven that the clear
and convincing evidence standard makes the
presumption effectively irrebuttable. To the contrary,
Florida has shown that recipients can and often do
rebut the presumption by clear and convincing
evidence. See, e.g., Herrera v. Agency for Health Care
Admin., No. 16-1270, 2016 WL 6068013 (Fla. DOAH
Oct. 11, 2016); Cardenas v. Agency for Health Care
Admin., No. 15-6594, 2016 WL 5784135 (Fla. DOAH
Sept. 29, 2016); Weedo v. Agency for Health Care
Admin., No. 16-1932, 2016 WL 5643668 (Fla. DOAH
Sept. 27, 2016). The procedure thus complies with the
level of burden-shifting considered in Wos. See 568 U.S.
at 641.8

8

It is not lost on me that by showing that challengers often rebut
the presumption, the state proves that the formula often gets it
wrong. But again, Florida’s formula isn’t the end—it’s the
beginning. For administrative convenience, Florida sets a

App. 58
Gallardo also claims that Florida’s presumptiveallocation formula poisons its allocation process
because the formula might spit out the wrong number
to start. But that is inherently true of all presumptive
allocations: They don’t always get the correct allocation
right off the bat. That is why the Supreme Court held
that the state must have a way to ensure that the
presumptive allocation is reasonable in each particular
case—a feat that the state can accomplish through a
proceeding in which the recipient can rebut the
presumptive amount. See id. at 639–40. On top of this,
the Supreme Court seems open to rebuttable
presumptions, some even more onerous than Florida’s.
See id. at 641 (describing several rebuttable
presumptions as “more accurate” than North Carolina’s
process, including one in which the state presumes that
the entire tort recovery represents past medical costs
and requires that the recipient rebut the presumption
by clear and convincing evidence). So the presumption
can be off at the start, as long as the recipient can
meaningfully rebut that result in the end.
Gallardo also levies another attack on Florida’s
presumptive allocation. She seems to say that the
state, if it wants to use a presumption, must first prove
that its presumptive allocation is reasonable “in the
mine run of cases.” In other words, Gallardo slaps onto

presumptive number using a standard formula and then allows
the challenger to rebut that number. Since the presumptive
number is in fact rebuttable, the procedure properly balances the
state’s interest in administrative feasibility with the individual’s
right to tort recovery. See Wos, 568 U.S. at 639.

App. 59
the presumptive-allocation method the same burden
that Wos attached to the ex-ante-criteria method.
This argument misses the mark for a few reasons.
For one, Wos discusses presumptive allocations and ex
ante criteria at different parts of the opinion, and there
is no indication that it meant to tie them together.
Compare id. (discussing presumptive allocations), with
id. at 643 (discussing ex ante criteria). In fact, the
Court said that presumptive allocations are simply
proceeding modifications—they ensure that individual
proceedings do not become too burdensome in the
aggregate. See id. at 641. Because they are part and
parcel of individual proceedings, these presumptions
seem to receive the same deference that the Court gives
to individual review, not the heightened standard that
the Court applies to ex ante formulas not backed by
individual review. See id. at 641. And again, Wos
considered presumptive allocations just as arbitrary as
(and far more onerous than) Florida’s presumption, and
it did so without suggesting that those states would
need to prove that their presumptions are correct in the
mine run of cases. See id.
Above all, the reasons for imposing a heightened
standard to stand-alone formulas do not apply to
rebuttable presumptions. When a state relies solely on
an ex ante formula without proof that the formula
works in the “mine run of cases,” the state provides no
assurance that the allocation will be fair for each
particular case. See id. at 637. But when the state uses
a rebuttable presumption, there remains a way to
ensure that the allocation is reasonable in each case:
an individual proceeding in which the recipient can

App. 60
rebut the presumptive amount. See id. at 641. So when
a state uses an administrative proceeding as a failsafe
for its presumptive allocation, it need not bear the
heavy burden of proving that its presumptive allocation
is reasonable in the mine run of cases. See id.
*

*

*

If Florida relied on only its formula to administer its
allocation scheme, Gallardo would be right that the
scheme conflicts with Wos. But because Florida uses its
formula to create a presumptive allocation, and
because Gallardo has not shown that the presumptive
allocation is in fact irrebuttable, Florida’s process
complies with federal law. For these reasons, I concur
with the majority.

App. 61

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
Case No. 4:16cv116-MW/CAS
[Filed: July 18, 2017]
_______________________________________
GIANINNA GALLARDO,
)
AN INCAPACITATED PERSON, BY AND
)
THROUGH HER PARENTS AND CO)
GUARDIANS PILAR VASSALLO AND
)
WALTER GALLARDO,
)
)
Plaintiff,
)
)
v.
)
)
JUSTIN M. SENIOR, IN HIS
)
OFFICIAL CAPACITY AS SECRETARY
)
OF FLORIDA AGENCY FOR HEALTH CARE
)
ADMINISTRATION,
)
)
Defendant. )
ORDER GRANTING IN PART AND DENYING
IN PART MOTION TO ALTER OR AMEND
JUDGMENT
In a cult-classic film, an eccentric inventor
transforms a DeLorean sports car into a sleek time

App. 62
machine. Cf. Back to the Future (Universal Pictures
1985). Enthralled, the protagonist travels back in time,
where (Great Scott!) he soon realizes that his actions in
the past can nonetheless affect the future.
The Florida Agency for Health Care Administration
(“AHCA”)1 has also tried to go back in time but, unlike
the protagonist mentioned above, it hopes to change the
future (more specifically, this Court’s prior judgment).
AHCA’s vehicle of choice, though, isn’t a time-traveling
DeLorean; it is a Motion to Alter or Amend the
Judgment. In that motion, AHCA makes a number of
arguments—most of which were previously available to
it. But this is not a movie; AHCA has not pointed to a
sufficient reason for this Court to go back in time to
allow it to raise those arguments in the first instance.
AHCA also presents a separate standing argument,
which is properly before this Court. But because AHCA
is the agency that administers Medicaid and the only
additional steps necessary to redress Gallardo’s
injuries are purely mechanical, its standing argument
is unconvincing on the merits.
AHCA’s motion is therefore GRANTED i n p a r t
and DENIED in part.2
I

1

For simplicity sake, This Court will refer to AHCA rather than
Justin M. Senior (or Elizabeth Dudek, the original Defendant who
has since stepped down from her position), who has been sued in
his official capacity as Secretary of AHCA.
2

Court reaches this conclusion with the benefit of a June 15, 2017,
hearing.

App. 63
The facts were addressed at length in this Court’s
original order granting summary judgment. Gallardo
v. Dudek, No. 4:16-cv-116, 2017 WL 1405166 (N.D. Fla.
Apr. 18, 2017). They are summarized briefly below and
supplemented with the more recent events in this case.
Medicaid is a joint federal–state program whereby
the federal government pays a significant portion of a
recipient’s medical costs and, in return, participating
states must comply with the applicable federal statutes
and regulations. Id. at *2. One of those provisions—the
so-called anti-lien provision—states that “[n]o lien may
be imposed against the property of any individual prior
to his death on account of medical assistance paid or to
be paid on his behalf under the State plan, [with
exceptions not relevant here].” 42 U.S.C. § 1396p(a)(1)
(2012). But two other provisions—the third-party
liability and assignment provisions—are narrow
exceptions that allow the state to assert liens on
payments for medical care. See Ark. Dep’t of Health &
Human Servs. v. Ahlborn, 547 U.S. 268, 285 (2006)
(“[T]he exception carved out by §§ 1396a(a)(25) and
1396k(a) is limited to payments for medical care.
Beyond that, the anti-lien provision applies.”).
Florida, which participates in the Medicaid
program, applies a one-size fits all statutory formula to
determine how much of a recipient’s recovery
constitutes medical expenses and is therefore available
for Medicaid reimbursement. See 409.910(11)(f), Fla.
Stat. (2016). The ultimate result is that AHCA is
awarded the lesser of(1) the amount it actually paid on
the Medicaid recipient’s behalf, or (2) 37.5% of the
Medicaid recipient’s total recovery. Gallardo, 2017 WL

App. 64
1405166, at *3. The Medicaid recipient, however, may
challenge that formula-based allocation and thus
reduce the amount payable to AHCA by filing a petition
with the Division of Administrative Hearings (“DOAH”)
and “‘prov[ing], by clear and convincing evidence, that
a lesser portion of the total recovery should be allocated
as reimbursement for past and future medical expenses
than the amount’ required by the statutory formula.”
Id. (quoting § 409.910(17)(b), Fla. Stat. (2016)).
Gallardo is currently in the midst of that
administrative process. She was struck by a vehicle
and suffered severe and permanent injuries. Gallardo’s
medical expenses were covered by Medicaid and
WellCare of Florida, which paid $862,688.77 and
$21,499.30, respectively. Id. Gallardo’s parents filed
suit against those allegedly responsible for her injuries,
and AHCA asserted a lien against that cause of action
for the $862,688.77 it expended on her behalf. Id.
Gallardo’s case settled for $800,000. Id. Under Florida’s
formula-based allocation, AHCA was therefore due to
be reimbursed $323,508.29 in medical expenses. Id.
Rather than pay that lien in its entirety, Gallardo
contested it through the state administrative procedure
outlined in § 409.910(17)(b). Id. at *4. In those
proceedings, Gallardo has argued that, contrary to
federal law, AHCA is attempting to recover its past
Medicaid payments from settlement funds that do not
represent compensation for pa st medical expenses. Id.
AHCA, however, has argued that it may satisfy its lien
from the portion of Gallardo’s settlement representing
compensation for past and future medical expenses. Id.
It has further argued that Gallardo may successfully

App. 65
challenge that formula-based allocation only if she can
prove by clear and convincing evidence that the amount
of her settlement representing past and future medical
expenses is less than $323,508.29. Id.
Gallardo then sought declaratory and injunctive
relief from this Court, ECF No. 1, and summary
judgment was granted in its favor. More specifically,
this Court declared that the federal Medicaid Act
preempted certain portions of § 409.910(17)(b) and that
AHCA therefore could not (1) “seek[] reimbursement of
past Medicaid payments from portions of a recipient’s
recovery that represents future medical expenses” or
(2) “requir[e] a Medicaid recipient to affirmatively
disprove . . . § 409.910(17)(b)’s formula-based allocation
with clear and convincing evidence to successfully
challenge it where, as here, that allocation is arbitrary
and there is no evidence that it is likely to yield
reasonable results in the mine run of cases.” Gallardo,
2017 WL 1405166,at *11. AHCA was therefore enjoined
from enforcing § 409.910(17)(b) in its current form. Id.
Apparently frustrated with this Court’s ruling,
AHCA hired new counsel, see ECF Nos. 42–43 (filing
notices of appearance) and moved to vacate or amend
the prior judgment, see ECF No. 44 (filing motion to
alter judgment). According to AHCA, this Court erred
in refusing to consider the reimbursement statute’s
practical effect and improperly shifted the burden to
AHCA, thus requiring it—the non-moving party—to
present evidence establishing that the reimbursement
statute is not in conflict with (and therefore preempted
by) federal law. Id. at 2–3. AHCA also asserts that this
Court’s prior judgment should be vacated because

App. 66
amendments to the federal Medicaid Act —which will
apparently allow states “to obtain reimbursement from
all or any part of a” Medicaid recipient’s recovery—are
scheduled to take effect on October 1, 2017. Id. at 17.
Finally, AHCA submits that it does not enforce certain
preempted portions of the reimbursement statute;
thus, the judgment must be vacated or amended. Id. at
3.
II
Rules 59 and 60 of the Federal Rules of Civil
Procedure are tools of limited utility. They are not
intended to provide disgruntled litigants with a second
bite at the apple. See O’Neal v. Kennamer, 958 F.2d
1044, 1047 (11th Cir. 1992) (explaining that attempts
under Rule 59 “to obtain a second bite at the apple” are
generally inappropriate); Seamon v. Vaughan, 921 F.2d
1217, 1220 n.6 (11th Cir. 1991) (asserting that “raising
. . . new arguments on a motion to amend . . . affords a
litigant two bites at the apple” (citation omitted)). That
is because the extraordinary remedy of reconsideration
is only appropriate in rare circumstances. See
Pensacola Firefighters’ Relief Pension Fund Bd. of Trs.
v. Merrill Lynch Pierce Fenner & Smith, Inc., 265
F.R.D. 589, 591 (N.D. Fla. 2010) (“Reconsideration of a
court’s previous order is an extraordinary remedy and,
thus, is a power which should be used sparingly.”
(citations omitted)).
AHCA moves for reconsideration on three separate
grounds, one of which is Rule 59(e). Reconsideration
under Rule 59(e) is available in the limited scenarios
“where there is newly-discovered evidence, an
intervening change in the law, or manifest errors of law

App. 67
or fact.” Fisher v. Carnival Corp., No. 11-22316-CIV,
2013 WL 12061861, at *1 (S.D. Fla. July 29, 2013)
(citing Arthur v. King, 500 F.3d 1335, 1343 (11th Cir.
2007))). It is thus improper to use that vehicle “to
relitigate old matters, raise forgotten arguments, or
present evidence that could have been, but was not,
raised prior to the entry of judgment.” Id. (citing
Michael Linet, Inc. v. Village of Wellington, Fla., 408
F.3d 757, 763 (11th Cir. 2005)). Relief under Rule 59(e)
is particularly inappropriate when the moving “party
has failed to articulate any reason for the failure to
raise an issue at an earlier stage in the litigation.”
Lussier v. Dugger, 904 F.2d 661, 667 (11th Cir. 1990)
(citing Van Ryn v. Korean Air Lines, 640 F. Supp. 284,
286 (C.D. Ca. 1985)).
AHCA also moves for reconsideration under Rule
60(b)(4) and (5). Rule 60(b)(4) offers relief only when
the judgment was void—that is, rendered without
jurisdiction or “in a manner inconsistent with due
process of law.” Burke v. Smith, 252 F.3d 1260, 1263
(11th Cir. 2001) (quoting In re Edwards, 962 F.2d 641,
644 (7th Cir. 1992)). Relief is warranted under Rule
60(b)(5) only if the moving party can establish “a
significant change either in factual conditions or in
law.” Fla. Wildlife Fed’n Inc. v. Admin, U.S. Envtl.
Protective Agency, 620 F. App’x 705, 707 (11th Cir.
2015) (quoting Sierra Club v. Meiburg, 296 F.3d 1021
(11th Cir. 2002)). Such relief is rarely granted. See
Enax v. Goldsmith, 322 F. App’x 833, 835 (11th Cir.
2009) (“Relief under Rule 60(b) is an ‘extraordinary
remedy which may be invoked upon only a showing of
exceptional circumstances.’” (quoting Crapp v. City of
Miami Beach, 242 F.3d 1017, 1020 (11th Cir. 2001)));

App. 68
see also United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 271 (2010) (expressing that Rule 60(b)(4)
applies in “rare” circumstances).
III
AHCA raises three arguments on the meritsin
support of its motion: (1) the formula-based allocation
is not quasi-irrebuttable; this (2) Court ignored the
presumption against preemption and improperly
shifted the burden to AHCA; and (3) that a possible
future amendment to federal law will require vacatur
of the injunction at some later date. ECF No. 44, at
4–23.
Those should-have, could-have, and (to round out
the trilogy) would-have arguments are too little, too
late. Quite simply, a motion to alter or amend a
judgment is not like a time-traveling DeLorean;
namely, it does not allow an unhappy litigant to
repackage and relitigate previously decided issues or
make new arguments that it wished it made in the first
place. Yet that is precisely what AHCA seeks to do
here. Unfortunately for AHCA, “I want a re-do” is not
a valid reason to grant its motion. Nor has it
“articulate[d] any reason” for this Court to allow it to
make those arguments here. Lussier, 904 F.2d at 667.
AHCA made a free, counseled, deliberate choice in
deciding what arguments to make in its original motion
and how to make them. It is irrelevant that the results
of that motion are not to AHCA’s liking. AHCA made
its bed the first time around. Now it must lie in it.
AHCA’s motion is especially pernicious in that this
litigation strategy—retaining new counsel to file some

App. 69
species of reconsideration motion after receiving an
unfavorable ruling—is all too common for Florida and
its agencies. Despite numerous opportunities to
adequately defend cases brought against it, Florida
consistently drags its feet. Then, after receiving an
unfavorable ruling, it complains about the original
ruling and hires outside counsel (and spends, quite
literally, hundreds of millions of taxpayer dollars)3 to
essentially relitigate the case.
Putting that aside, AHCA’s arguments are
unavailing. First, it is, in AHCA’s words, “simply
wrong” that this Court committed manifest error in
concluding that the reimbursement statute’s
f o r m u l a - b a s e d a l l oca t i on a m ounts t o a
quasi-irrebuttable presumption based on the fact that,
as AHCA points out, a handful of Medicaid recipients
3

Since 2011, Florida has shelled out an astounding $237 million
– or close to $40 million a year – on outside counsel. Gary Fineout,
State Spends $237 million on private lawyers, records show,
Orlando Sentinel (Mar. 13, 2017), http://www.orlandosentinel.com/
news/politics/political-pulse/os-floridalegal-fees-20170313story.html. For context, New York— which has a larger population
than Florida—spent less than half that amount. Id. And many of
those dollars aren’t even being funneled back into the state;
instead, Florida often sends its taxpayer dollars to other states or
jurisdictions. In one case alone, Florida racked up $97.8 million in
attorneys’ fees. Mary Ellen Klas, Secretary resigned after $98
million in legal fees in Florida water wars, Tampa Bay Times (Jan.
23, 2017), http://www.tampabay.com/news/secretaryresigned-after98-million-in-legal-fees-in-florida-water-wars/2310572. Of that
$97.8 million, Latham & Watkins LLP (which does not have a
Florida office) was paid $35.9 million. Id. The two firms involved
in that case with Florida offices—Foley & Lardner LLP and
Carlton Fields Jorden Burt, P.A.—were paid a mere $2.6 million
and $966,000, respectively. Id.

App. 70
have rebutted the reimbursement statute’s
formula-based allocation. ECF No. 44, at 4, 6. AHCA
plainly conceded that it was “not relying upon the
practice” of “how individual [DOAH hearing officer]s
may or may not apply the” formula-based allocation.
ECF No. 44-1, at 13, 15. It cannot now reasonably
expect this Court to ignore that concession.
Yet the result would be the same even if it did. That
is because the formula-based allocation is still
preempted if, “[i]n some circumstances, . . . [it]
permit[s] the State to take a portion of a Medicaid
beneficiary’s tort judgment or settlement not
‘designated as payments for medical care.’” Wos v.
E.M.A. ex rel. Johnson, 568 U.S. 627, 644 (2013)
(quoting Ahlborn, 547 U.S. at 284). And, after
reasoning that the formula -based allocation ignores
allocations made by a judge or jury and has no rational
relationship to the Florida Bar’s attorneys’ fees rules,4
4

AHCA denounces this Court for considering these factors. ECF
No. 44, at 10–12. That denunciation is misplaced. The former was
relevant to this Court’s analysis in that Wos considered whether
the statute at issue “operate[d] to allow the State to take one-third
of the total recovery, even if aproper stipulation or judgment
attributes a smaller percentage to medical expenses.” 568 U.S. at
638. AHCA admitted that the formula-based allocation at issue
here does just that. See ECF No. 44-1, at 11 (acknowledging that
nothing “in the Florida statute . . . says the jury verdict will control
the agency’s lien amount”). Similarly, it was appropriate for this
Court to consider the attorneys’ fees provision. “[A] preemption
analysis must contemplate the practical result of the state law
. . . .” United States v. Alabama, 691 F.3d 1269, 1296 (11th Cir.
2012); see also Blue Cross and Blue Shield of Fla., Inc. v. Dep’t of
Banking and Fin., 613 F. Supp. 188, 191 (M.D. Fla. 1985)
(explaining that a preemption analysis requires courts “to consider
the relationship between state and federal laws as they are

App. 71
Gallardo, 2017 WL 1405166, at *9, this Court
concluded that it does.
Second, AHCA argues that this Court ignored the
presumption against preemption and i m p r o p e r l y
shifted “the burden to AHCA to show whether the
default allocation will yield reasonable results in the
mine run of cases . . . .” ECF No. 44, at 13–14.
Nonsense. Contrary to AHCA’s assertion, the
presumption against preemption is an interpretative
presumption—not an evidentiary one. See Fla. State
Conference of N.A.A.C.P. v. Browning, 522 F.3d 1153,
1167–68 (11th Cir. 2008) (explaining that the
presumption against preemption applies to “statutory
interpretation” and, further, that “it is difficult to
understand what a presumption in conflict preemption
cases amounts to”); see also CSX Transp., Inc. v.
Healey, Nos. 16-2171, 16-2172, 2017 WL 2703431, at *8
(1st Cir. June 23, 2017) (stating that the
presumption against preemption is an “interpretative
presumption[]” (citing Medtronic, Inc. v. Lohr, 518 U.S.
470, 485 (1996))). That presumption “dissipates when
the intention of Congress is ‘clear and manifest.’”
Smith v. CSX Transp., Inc., 381 F. App’x 885, 886 (11th
Cir. 2010) (quoting Riegel v. Medtronic, Inc., 552 U.S.
312, 334 (2008)). And that is precisely the case here;
this Court thoroughly analyzed the anti-lien and
anti-recovery provisions and concluded that they

interpreted and applied, not merely as they are written” (quoting
Jones v. Rath Packing Co., 430 U.S. 519, 526 (1977))). Considering
the attorneys’ fees provision here simply revealed that, as applied,
the formula-based allocation allows AHCA to take more than that
which it is entitled to.

App. 72
preempted portions of Florida’s Medicaid statute. Such
an analysis was eminently appropriate. See Medtronic,
Inc., 518 U.S. at 486 (“Congress’ intent, of course, is
primarily discerned from the language of the
pre-emption statute and the ‘statutory framework’
surrounding it.” (quoting Gade v. Nat’l Solid Wastes
Mgmt. Ass’n, 505 U.S. 88, 111 (1992) (Kennedy, J.,
concurring in part and concurring in judgment))).
Moreover, this Court did not improperly shift the
burden to AHCA on summary judgment. See ECF No.
44, at 15 (arguing that this Court “deviated from the
accepted standard on summary judgment”). Rather, it
simply adhered to Wos’s teaching that Florida could
“adopt ex ante administrative criteria for allocating
medical and nonmedical expenses, provided that th[o]se
criteria are backed by evidence suggesting that they are
likely to yield reasonable results in the mine run of
cases.” 568 U.S. at 643 (emphasis added). Because
AHCA presented zero evidence suggesting that
Florida’s reimbursement statute follows (let alone
considered5) that teaching, this Court correctly
concluded that portions of it were preempted.
Third, it is immaterial that a potential amendment
to the federal Medicaid Act may (or may not) allow
states to “obtain reimbursement from all or any part of
5

Although certainly not dispositive, Gallardo’s counsel filed a
Public Records Request seeking records containing “[a]ny analysis
by AHCA that the [formula-based allocation] is a reasonable
approximation of the amount recovered for past medical expenses
incurred by AHCA . . . .” ECF No. 51-1, at 1. In response, AHCA
stated that it possessed “no responsive documents.” ECF No. 51-2,
at 1.

App. 73
a” Medicaid recipient’s recovery at some later time.
ECF No. 44, at 17.That amendment’s effective date has
been, at best, mercurial.6 And even assuming the
amendment does go into effect as planned and actually
grants the states a more expansive right of recovery,
other critical questions would remain unanswered
—most relevant here, whether t h e a m e n d m e n t
applies retroactively or prospectively. In any event,
AHCA can seek relief under Rule 60(b)(5) if and when
the Medicaid amendment goes into effect.
IV
Finally, AHCA contends that this Court’s prior
judgment must be vacated (or at least amended) for
lack of subject matter jurisdiction. More specifically,
AHCA argues that Gallardo did not have standing to
sue it because it does not enforce the challenged
portions of Florida’s reimbursement statute. Unlike
AHCA’s other arguments, its jurisdictional one is
properly raised at this juncture. See Fla. Ass’n of Med.
Equip. Dealers v. Apfel, 194 F.3d 1227, 1230 (11th Cir.
1999) (“[E]very court has an independent duty to
review standing as a basis for jurisdiction at any time,
for every case it adjudicates.” (citing FW/PBS, Inc. v.
Dallas, 493 U.S. 215, 230–31 (1990))); see also Fed. R.

6

See Bipartisan Budget Act of 2013, Pub. L. 113-67, § 202(c), 127
Stat. 1165, 1177 (2013) (setting effective date of October 1, 2014);
Protecting Access to Medicare Act of 2014, Pub. L. 113-93, § 211,
128 Stat. 1040, 1047 (2014) (moving effective date October 1,
2016); Medicare Access and Chip Reauthorization Act of 2015),
Pub. L. 114-10, § 220, 129 Stat. 87, 154 (2015) (moving effective
date to October 1, 2017).

App. 74
Civ. P. 12(h)(3) (allowing subject-matter jurisdiction
arguments “at any time”).
A
Federal courts are not courts of general jurisdiction;
instead, they are limited to hearing actual cases and
controversies. U.S. Const. art. III, § 2. Necessarily
baked into this “bedrock requirement,” Raines v. Byrd,
521 U.S. 811, 818 (1997) ( q u o t i n g V a l l e y F o r c e
Christian College v. Ams. United for Separation of
Church and State, Inc., 454 U.S. 464, 471 (1982)), is
that a plaintiff have standing, see Via Mat Int’l S. Am.
Ltd. v. United States, 446 F.3d 1258, 1262 (11th Cir.
2006) (noting that standing is a “threshold matter
required for a claim to be considered by the federal
courts”). For a plaintiff to have standing, he or she
must establish, among other things,7 that his or her
injury is likely to be “redressed by a favorable
decision.”Nat’l Parks Conservation Ass’n v. Norton, 324
F.3d 1229, 1241 (11th Cir. 2003) (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560–61 (1992)).
This is commonly referred to as the “redressability”

7

A plaintiff must also establish “that he [or she] has suffered an
injury-in-fact—that is, an injury that is concrete and
particularized, and actual or imminent” and “a causal connection
between the injury and the defendant’s conduct[.]” Navellier v.
Florida, 672 F. App’x 925, 928 (11th Cir. 2016) (citing DiMaio v.
Democratic Nat’l Comm., 520 F.3d 1299, 1302 (11th Cir. 2008)).
Those requirements, however, are not at issue here.

App. 75
prong.8 I.L. v. Alabama, 739 F.3d 1273, 1278 (11th Cir.
2014).
Reduced to its most basic form, the redressability
prong ensures that the court’s judgment has teeth and
can effectively rectify a cognizable injury. “Relief that
does not remedy the injury suffered” is no relief at all
and certainly “cannot bootstrap a plaintiff into federal
court . . . .” Steel Co. v. Citizens for a Better
Environment, 523 U.S. 83, 107 (1998). Thus, in suits
such as this one, where “the plaintiff seeks a
declaration of the unconstitutionality of a state statute
and an injunction against its enforcement, a state
officer, in order to be an appropriate defendant, must,
at a minimum, have some connection with enforcement
of the provision at issue.” Socialist Workers Party v.
8

One minor point of clarification. At the June 15, 2017, hearing,
this Court did not ask “the parties to consider whether a less
rigorous standard of redressability applies to claims for declaratory
relief than to claims for injunctive relief.” ECF No. 54, at 2. Nor did
it imply (much less state) that some different redressability
standard applied to claims for declaratory relief. Indeed, it is
without question that “[t]he requirements for a justiciable case or
controversy are no less strict in a declaratory judgment proceeding
than in any other type of suit.” Ala. State Fed’n of Labor, Local
Union No. 103 v. McAdory, 325 U.S. 450, 561 (1945) (citations
omitted). Rather, it simply asked whether those identical
redressability principles apply differently to cases of declaratory
relief such that it is possible to have standing for declaratory relief,
but not injunctive relief. It is. See Doe v. Stincer, 175 F.3d 879, 887
n.6 (11th Cir. 1999) (concluding that the plaintiff had standing to
sue the state Attorney General even assuming that he “lack[ed]
the necessary enforcement authority to support the grant of
injunctive relief enjoining the statute’s enforcement” because “a
favorable ruling could result in a declaratory judgment against the
Attorney General holding the Florida statute invalid”).

App. 76
Leahy, 145 F.3d 1240, 1248 (11th Cir. 1998) (emphasis
added) (citations omitted). If relief is sought against an
official who cannot remedy the plaintiff’s alleged
injury, there is no “‘case or controversy’ between
himself and the defendant[s] within the meaning of
Art[icle] III.” Scott v. Taylor, 405 F.3d 1251, 1259 (11th
Cir. 2005) (Jordan, J., concurring) (emphasis added)
(quoting Warth v. Seldin, 422 U.S. 490, 498 (1975)).
B
Injunctive relief will be addressed first. The
amended judgment enjoined AHCA “from enforcing
[§ 409.910(17)(b)] in its current form.” Gallardo, 2017
WL 1405166, at *11 . Yet AHCA states that it cannot
enforce that injunction because it does not “decide what
burden of proof applies or whether the recipient has
satisfied that burden”; that task is reserved for DOAH.
ECF No. 44, at 24. While this Court recognizes and
agrees that AHCA does not apply the clear and
convincing burden, that fact is not determinative of
the standing question.
Common sense dictates that courts cannot force a
defendant “to act in any way that is beyond [the
defendant’s] authority to act in the first place.”
Okpalobi v. Foster, 244 F.3d 405, 427 (5th Cir. 2001);
see also Swan v. Bd. of Educ. Of City of Chicago, 956 F.
Supp. 2d 913, 918 (N.D. Ill. 2013) (“[W]here . . . a
plaintiff seeks an injunction against a defendant, he or
she must demonstrate that the defendant to be
enjoined has the authority to effectuate the injunction.”
(citations omitted)). That is because, absent such
authority, the defendant would be “powerless to
remedy the alleged injury.” Scott, 405 F.3d at 1259

App. 77
(citations omitted). In other words, enjoining such a
defendant “would be a meaningless gesture.” Bronson
v. Swensen, 500 F.3d 1099, 1112 (10th Cir. 2007).
And this Court was well aware of that fact when it
enjoined AHCA from enforcing the current iteration of
the reimbursement statute. By no means did it intend
to enjoin AHCA from requiring a recipient to overcome
the formula-based allocation with clear and evidence
for that recipient to be successful—that would be an
exercise in futility. Rather, it simply meant to enjoin
AHCA from seeking reimbursement for past medical
expenses through portions of a recipient’s recovery that
represents future medical expenses either directly from
the recipient9 or through DOAH.10 By extension, that
also means AHCA cannot seek reimbursement based
on the formula-based allocation when doing so would
allow it to obtain more than that which it is entitled to.
Those are both tasks that AHCA—which is responsible
for administering Medicaid and asserting Medicaid
liens—”“ha[s] some connection with . . . .” Socialist
Workers Party, 145 F.3d at 1248 (emphasis added)
(citations omitted)11 Therefore, AHCA is properly

9

A lien only makes it to AHCA if the recipient contests it.
§ 409.910(17)(b), Fla. Stat. (2016). Thus, for the vast majority of
liens that go uncontested, AHCA is the only entity involved in the
reimbursement process.
10

For simplicity sake, this Court will refer to this as the
“reimbursement portion of the judgment.”
11

On this point, the cases cited by AHCA are distinguishable.
Take Socialist Workers Party v. Leahy, 145 F.3d 1240 (11th Cir.
1998). There, the plaintiff lacked standing to bring suit against

App. 78
enjoined from “seeking reimbursement of past
Medicaid payments from portions of a recipient’s
recovery that represents future medical expenses.”
Gallardo, 2017 WL 1405166, at *11.12 With that said,
this Court is not so prideful that it will not
acknowledge its mistakes. It freely admits that, at
least with regards to the injunction’s scope, the prior
judgment is not a model of clarity. It will therefore be
amended to clarify that it does not extend to the
portion referencing the reimbursement statute’s clear
and convincing burden.
C
One issue therefore remains: whether it was
nonetheless proper for this Court to declare that the
reimbursement statute’s clear and convincing burden
is preempted by the federal Medicaid Act even though
DOAH—not AHCA —applies that standard. It was.
Declaratory relief is appropriate when a favorable
ruling for one party may result in “a change in a legal
status . . . and the practical consequence of that change

certain defendants because they lacked the authority to enforce the
challenged statutes. See id. at 1248 (denying standing for
injunctive relief because the relevant defendants “ha[d] no
authority to enforce” the challenged statute). But AHCA wields
such authority. For example, it “is the Medicaid agency for the
state, as provided under federal law[,]” § 409.901(2), Fla. Stat.
(2016), and is permitted “as a matter of right, in order to enforce
its rights” to “institute, intervene in, or join any legal or
administrative proceeding in its own name . . . .” § 409.910(11),
Fla. Stat. (2016).
12

For that same reason, declaratory relief is proper as well.

App. 79
would amount to a significant increase in the likelihood
that the plaintiff would obtain relief that directly
redresses the injury suffered.” Utah v. Evans, 536 U.S.
452, 464 (2002) (citations omitted). Generally, the
availability of such relief hinges on the declaration’s
capacity to secure redress “through the court, but from
the defendant.” Canup v. Chimpan–Union, Inc., 123
F.3d 1440, 1443 (11th Cir. 1997) (emphasis in original)
(quoting Hewitt v. Helms, 482 U.S. 755, 761 (1987)).
But it isn’t always so cut and dried; rather, standing is
also appropriate if the redress is effectuated by an
unnamed third party or parties, the steps necessary to
effectuate that redress are “purely mechanical,” and it
is “substantially likely that the [third party or parties]
would abide by an authoritative interpretation” of the
court’s ruling. Evans, 536 U.S. at 463–64 (quoting
Franklin v. Massachusetts, 505 U.S. 788, 803 (1992)).
An example is helpful. In Evans, Utah brought suit
against the Census Bureau and the Secretary of
Commerce seeking, among other things, a declaration
that a certain method of “imputing” census
information—specifically, the number of people living
in a certain household—violated federal law. Id. at
459.13 At bottom, Utah argued that “imputing” the size
of those households that the Census Bureau lacked
13

The process at issue in Evans is, to put it lightly, dizzying.
Suffice it to say that Census Bureau employees would attempt to
obtain household information through a variety of different
channels. If those attempts were unsuccessful, the Bureau would
“impute” the relevant information—including the number of people
living in the unknown household—by inferring the unknown
household’s characteristics from those of a nearby one. Evans, 536
U.S. at 457–58.

App. 80
information about caused it to receive a less favorable
apportionment of congressional representatives than if
the number of individuals living in those households
was simply counted as “zero.” Id. at 458. North
Carolina, which benefited from such “imputing,”
argued that a favorable ruling would not redress
Utah’s asserted injury. Id. at 459. That was because
such redress would require a perfectly executed domino
effect, yet some of those other dominoes were not
named parties: the Secretary of Commerce would have
to create a new report and submit it to the President,
who would then transmit that report to Congress, and
finally (after some time) the Clerk of the House of
Representatives would notify each individual state how
many congressional seats it was entitled to. Id. at 461.
Thus, according to North Carolina, Utah’s asserted
redress was through the Court, but not from the
defendants. See id. (restating North Carolina’s
argument that the ultimate relief “cannot help bring
about th[e] ultimate ‘redress’”).
But the Supreme Court disagreed. It reasoned that
a ruling in Utah’s favor would force the Secretary of
Commerce to create a new report. Id. at 463. If that
report “contain[ed] a different conclusion about the
relative populations of North Carolina and Utah,” then
it would eventually go into effect. Id. It was immaterial
that other dominoes needed to fall w i t h a b s o l u t e
precision for that to occur; those subsequent
“apportionment-related steps would be purely
mechanical . . . .” Id. And, under those circumstances,
it was “substantially likely that the President and
other executive and congressional officials would abide
by an authoritative interpretation of the census statute

App. 81
and constitutional provision . . . .”14 Id. at 464 (quoting
Franklin, 505 U.S. at 803). In other words, a favorable
ruling “would amount to a significant increase in the
likelihood that the plaintiff would obtain relief that
directly addresses the injury suffered.” Id. at 564.
Similar to Evans, a declaration that the
reimbursement statute’s clear and convincing burden
is preempted by federal law would also significantly
increase the likelihood that Gallardo would obtain the
redress she seeks. Of course, unlike the reimbursement
portion of the prior judgment, this Court’s declaration
that the clear and convincing burden is preempted in
this type of scenario would require additional steps to
redress Gallardo’s injury; namely, DOAH not requiring
Gallardo to disprove the reimbursement statute’s
formula-based allocation with clear and convincing
evidence in Gallardo’s administrative proceeding. But
that step is “purely mechanical.” Id. at 463. What is
more, though, is that DOAH—which is, in effect, a
quasi-judicial body15—is substantially likely to “abide
by an authoritative interpretation[,]” id., at 464, from
this Court (and through AHCA) that it cannot apply
such a burden.

14

That was so even though the President was “not expressly
required to adhere to the policy decisions reflected in the Secretary
[of Commerce]’s report.” Franklin v. Massachusetts, 505 U.S. 788,
799 (1992).
15

See Fla. State Univ. v. Hatton, 672 So.2d 576, 579 (1st DCA
1996) (stating that DOAH hearing officers are “quasi-judicial
officer[s] of a quasi-judicial forum”).

App. 82
There is more. Even if the additional steps were not
“purely mechanical” such that Evans applied, id., this
Court could nonetheless assume that DOAH “will give
full credence” to this Court’s ruling. Roe v. Wade, 410
U.S. 113, 166 (1973); see also Phelps v. Powers, 63 F.
Supp. 3d 943, 958 (S.D. Iowa 2014) (suggesting that
declaratory relief was sufficient “based on the
assumption that the Iowa prosecutorial authorities will
give full credence to th[e] Court’s holding”).That would
also make declaratory relief appropriate. SeeRoe, 410
U.S. at 166; Phelps, 63 F. Supp. 3d at 958.
AHCA’s pleas to the contrary are unpersuasive. It
cites cases like Nova Health Systems v. Gandy, 416
F.3d 1149 (10th Cir. 2005), to argue that Gallardo lacks
standing for declaratory relief as to the reimbursement
statute’s clear and convincing burden. In that case, an
Oklahoma statute provided that those who performed
an abortion on a minor without parental consent or
knowledge were liable “for the cost of any subsequent
medical treatment such minor might require because
of the abortion.” Id. at 1153 (citation omitted). The
plaintiff filed suit against four “Oklahoma public
officials whose functions include overseeing certain
state medical institutions” seeking, among other
things, a declaration that the statute was
unconstitutional. Id. at 1153–54. Those four
defendants, however, did not represent the only
institutions where subsequent medical treatment for
those minors took place; they were just four big-name
players. Id. at 1157, 1159. That made it “entirely
speculative” that a declaration in the plaintiff’s favor
would redress its injury. Id. at 1159. Such relief was
therefore inappropriate. See id. (rejecting the argument

App. 83
“that a favorable declaratory judgment against the[]
defendants would redress its injury by deterring other
potential litigants from relying on [the statute at
issue], even in state court”).
But that case, like the other similar cases that
AHCA relies on, is distinguishable on two fronts. First,
it ignores Evans (and, for that matter, Roe as well).
Instead, it—and AHCA —cites Scalia’s concurrence in
Franklin for the proposition that “[r]edressability
requires that the court be able to afford relief through
the exercise of its power, not through the persuasive or
even awe-inspiring effect of the opinion explaining the
exercise of its power.” Id. (quoting Franklin, 505 U.S.
at 825 (Scalia, J., concurring in the judgment)). But
that concurrence persuaded neither the Franklin
plurality nor the Evans Court. This Court is at a loss
as to why it should apply such logic here. Second,
unlike Gandy, there aren’t a myriad of other parties
who can assert liens against a Florida Medicaid
recipient’s recovery, thus kick starting the process to
possibly bring the recipient before DOAH to challenge
that lien. Who else could be expected to assert such a
lien, and then allow the subsequent “purely
mechanical” steps to take place such that the recipient
could receive the type of redress sought here? The
answer is simple: AHCA, and only AHCA. See ECF No.
5, at 1 (admitting that AHCA is responsible for
enforcing Medicaid liens).
D
In short, AHCA is absolutely correct that it cannot
be enjoined from requiring a recipient to overcome the
formula-based allocation with clear and convincing

App. 84
evidence for that recipient to be successful. DOAH
applies that standard, not AHCA. The prior judgment
will therefore be amended to clarify the injunction’s
scope. But that doesn’t divest this Court of standing to
address the reimbursement statute’s clear and
convincing burden. Rather, it properly declared that
applying such a burden—at least in certain
circumstances—runs afoul of and is therefore
preempted by federal law. AHCA’s motion is therefore
GRANTED in part and DENIED in part.
Accordingly,
IT IS ORDERED:
1. AHCA’s Motion to Alter or Amend the
Judgment and for Relief from Judgment,
ECF No. 44, is GRANTED in part and
DENIED in part.
2. AHCA’s motion is GRANTED to the extent
that it seeks an amendment clarifying the
injunction’s scope.
3. The balance of AHCA’s motion is DENIED.
4. The Clerk shall enter a second amended
judgment stating:
Gianinna Gallardo, an incapacitated person, by
and through her parents and co-guardians, Pilar
Vassallo and Walter Gallardo, successfully
proved that portions of § 409.910(11)(f), Fla.
Stat. (2016) and § 409.910(17)(b), Fla. Stat. are
preempted by federal law.

App. 85
It is declared that the federal Medicaid Act
prohibits the State of Florida Agency for Health
Care Administration from seeking
reimbursement of past Medicaid payments from
portions of a recipient’s recovery that represents
future medical expenses. The State of Florida
Agency for Health Care Administration is
therefore enjoined from doing just that: seeking
reimbursement of past Medicaid payments from
portions of a recipient’s recovery that represents
future medical expenses.
It is also declared that the federal Medicaid Act
prohibits the State of Florida from requiring a
Medicaid recipient to affirmatively disprove
§ 409.910(17)(b)’s formula-based allocation with
clear and convincing evidence to successfully
challenge it where, as here, that allocation is
arbitrary and there is no evidence that it is
likely to yield reasonable results in the mine run
of cases.
SO ORDERED on July 18, 2017.
s/Mark E. Walker
United States District Judge

App. 86

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CASE NO. 4:16-cv-116-MW-CAS
[Filed: July 18, 2017]
___________________________
GIANINNA GALLARDO
)
)
VS
)
)
ELIZABETH DUDEK and )
JUSTIN M SENIOR
)
___________________________)
SECOND AMENDED JUDGMENT
Gianinna Gallardo, an incapacitated person, by and
through her parents and co- guardians, Pilar Vassallo
and Walter Gallardo, successfully proved that portions
of § 409.910(11)(f), Fla. Stat. (2016) and
§ 409.910(17)(b), Fla. Stat. (2016) are preempted by
federal law. It is declared that the federal Medicaid Act
prohibits the State of Florida Agency for Health Care
Administration from seeking reimbursement of past
Medicaid payments from portions of a recipient’s
recovery that represents future medical expenses. The
State of Florida Agency for Health Care
Administration is therefore enjoined from doing just
that: seeking reimbursement of past Medicaid

App. 87
payments from portions of a recipient’s recovery that
represents future medical expenses. It is also declared
that the federal Medicaid Act prohibits the State of
Florida from requiring a Medicaid recipient to
affirmatively disprove § 409.910 (17)(b)’s formula-based
allocation with clear and convincing evidence to
successfully challenge it where, as here, that allocation
is arbitrary and there is no evidence that it is likely to
yield reasonable results in the mine run of cases.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
July 18, 2017
DATE

s/ Chip Epperson____________
Deputy Clerk: Chip Epperson

App. 88

APPENDIX D

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
Case No. 4:16cv116-MW/CAS
[Filed: April 18, 2017]
__________________________________________
GIANINNA GALLARDO,
)
AN INCAPACITATED PERSON,
)
BY AND THROUGH HER PARENTS
)
AND CO-GUARDIANS, PILAR
)
VASSALLO AND WALTER GALLARDO,
)
)
Plaintiff,
)
)
v.
)
)
ELIZABETH DUDEK,
)
IN HER OFFICIAL CAPACITY AS
)
SECRETARY OF FLORIDA
)
AGENCY FOR
)
HEALTH CARE ADMINISTRATION,
)
)
Defendant.
)
__________________________________________)
ORDER ON SUMMARY JUDGMENT MOTIONS
Imagine this scenario. You’re the parent of a
thirteen-year-old girl, whom you love dearly. She is

App. 89
your world. Tragically, one day you receive the phone
call that every parent fears more than anything; the
daughter that you adore was struck by a vehicle,
medevacked to a nearby hospital, and is now in critical
condition. Medicaid covers around $800,000 for her
treatment. Although the hospital staff tries their best,
they aren’t miracle workers. As a result of the accident,
your beloved daughter is now in a persistent vegetative
state and can no longer ambulate, communicate, eat, or
care for herself in any manner. You try to wake up
from this nightmare. But you’re not asleep—the
nightmare is real.
And it only gets worse. Knowing that your daughter
will need continuous medical care for the rest of her life
(and hoping to recover past expenses and emotional
damages), you file suit against the responsible parties.
Even though your suit is worth somewhere around
$20,000,000, you eventually settle for $800,000; a 4%
recovery. You then notify the applicable state agency,
which will for purposes of this hypothetical be called
“the agency” for short, of the settlement and explain
that around $35,000 of that settlement is for past
medical expenses—4% of the approximately $800,000.
Nonetheless, as allowed by the state’s statute, the
agency imposes an approximately $300,000 lien—an
amount representing, as prescribed by the state’s
statute, 37.5% of your settlement. Moreover, the
agency seeks to satisfy that lien from the settlement
funds representing both past and future medical
expenses. And the only way you can successfully reduce
that lien is to prove by clear and convincing evidence
that the actual amount allocable to past and future
medical expenses is, in fact, less than that $300,000.

App. 90
Gianinna Gallardo’s parents are currently living
that nightmare. After initiating administrative
proceedings to challenge that lien, Gallardo’s parents
and guardians filed this case on her behalf seeking a
declaratory judgment that Florida’s reimbursement
statute—which that hypothetical was based on—
violates federal law. Particularly relevant to that issue
is the federal Medicaid statute’s anti-lien provision,
which generally prohibits participating states from
placing a lien on any portion of a Medicaid beneficiary’s
recovery not designated as payments for medical care.
Is Florida’s reimbursement statute preempted by
federal Medicaid law? The short answer is “yes.” By
allowing the State Agency for Health Care
Administration (“AHCA”)—Florida’s agency that is
charged with administering Medicaid—to satisfy its
lien from settlement funds allocable to both past and
future medical expenses, Florida has run afoul of the
Medicaid statute. The same is true for Florida’s
arbitrary, one-size-fits-all statutory formula.
Specifically, Florida’s reimbursement statute—which,
coupled with a host of other obstacles, only allows the
Medicaid recipient to rebut that formula-based
allocation by presenting clear and convincing evidence
that it is inaccurate—amounts to a quasi-irrebuttable
presumption and thus conflicts with and is preempted
by federal law.
Gallardo’s Motion for Summary Judgment, ECF No.
11, is therefore GRANTED, and AHCA’s Motion for

App. 91
Summary Judgment, ECF No. 13, is therefore
DENIED.1
I
This case involves a few relatively straightforward
provisions of the otherwise dizzying Medicaid Act2 and
Florida’s attempt to legislate against those provisions.
To simplify this Court’s analysis, it will outline the
following in turn: (1) the relevant portions of the
federal Medicaid statute; (2) Florida’s reimbursement
statute; and (3) the underlying facts of this case.
A. Federal Law
Medicaid is a joint federal–state program designed
to help participating states provide medical treatment
for their residents that cannot afford to pay. Moore ex
rel. Moore v. Reese, 637 F.3d 1220, 1232 (11th Cir.
2011). Although states are not required to participate
in Medicaid, all of them do. Id. The federal government
pays a significant portion of the costs for patient care
and, in return, the states pay the remainder and must
comply with the federal statutory and regulatory
requirements. See Alexander v. Choate, 469 U.S. 287,
289 n.1 (1985) (stating that the federal government
“subsidizes a significant portion of the financial
obligations the State has agreed to assume” and that
1

This Court reaches these conclusions with the benefit of an April
11, 2017, hearing.
2

The Supreme Court has previously stated that Medicaid’s
“Byzantine construction . . . makes [it] ‘almost unintelligible to the
uninitiated.’” Schweiker v. Gray Panthers, 453 U.S. 34, 43 (1981)
(quoting Friedman v. Berger, 547 F.2d 724, 727 n.7 (2d Cir. 1976)).

App. 92
“[o]nce a State voluntarily chooses to participate in
Medicaid, the State must comply with the
requirements of Title XIX and applicable regulations”
(citing Harris v. McRae, 448 U.S. 297, 301 (1980))).
Two of those requirements are the so-called antilien and anti-recovery provisions. These requirements
are broad and “express limits on the State’s powers to
pursue recovery of funds it paid on the recipient’s
behalf.” Ark. Dep’t of Health & Human Servs. v.
Ahlborn, 547 U.S 268, 283 (2006). Specifically, the
antilien provision states that “[n]o lien may be imposed
against the property of any individual prior to his
death on account of medical assistance paid or to be
paid on his behalf under the State plan, [with
exceptions not relevant here].” 42 U.S.C. § 1396p(a)(1)
(2012). Similarly, the anti-recovery provision states
that “[n]o adjustment or recovery of any medical
assistance correctly paid on behalf of an individual
under the State plan may be made, [with exceptions
not relevant here].” Id. § 1396p(b). Thus, considered
“literally and in isolation,” the anti-lien and antirecovery provisions prohibit states from reaching the
proceeds from a Medicaid recipient’s recovery. Ahlborn,
547 U.S. at 284.
But the third-party liability and assignment
provisions temper that sweeping prohibition by
providing narrow exceptions. The third-party liability
provision, for example, requires states “to ascertain the
legal liability of third parties . . . to pay for care and
services under the plan[.]” § 1396a(a)(25)(A). If thirdparty liability is found to exist, states must seek
reimbursement for medical expenses incurred on behalf

App. 93
of recipients who later recover from those third parties.
See id. § 1396a(a)(25)(B) (“[I]n any case where such a
legal liability is found to exist after medical assistance
has been made available on behalf of the individual
and where the amount of reimbursement the State can
reasonably expect to recover exceeds the costs of such
recovery, the State or local agency will seek
reimbursement for such assistance to the extent of such
legal liability[.]” (emphasis added)). Likewise, under
the assignment provision, states must have in effect
laws that, “to the extent that payment has been made
under the State plan for medical assistance for health
care items or services furnished to an individual,” give
the state the right to recover payment “for such
[furnished] health care items or services” from liable
third parties. Id. § 1396a(a)(25)(H) (emphasis added).
To help effectuate that requirement, states must
require a recipient “to assign the State any rights . . .
to payment for medical care from any third party.” Id.
§ 1396k(a)(1)(A) (emphasis added).
To summarize, the third-party liability and
assignment provisions outlined in §§ 1396(a)(25) and
1396k(a) are narrow exceptions to the broad anti-lien
and anti-recovery provisions, and those exceptions only
apply to payments for medical care. See Ahlborn, 547
U.S. at 284–85 (“As explained above, the exception
carved out by §§ 1396a(a)(25) and 1396k(a) is limited
to payments for medical care.”). “Beyond that, the antilien provision” shields a recipient’s recovery from the
state’s clutches. Id. at 285–86.

App. 94
B. State Law
Florida applies a one-size-fits-all statutory formula
to determine how much of a recipient’s recovery
constitutes medical expenses and is therefore available
for Medicaid reimbursement. First, the formula
reduces the gross recovery by 25% to account for the
recipient’s attorney’s fees. See § 409.910(11)(f)(1), Fla.
Stat. (2016) (deducting “attorney’s fees and taxable
costs” from the “judgment, award, or settlement”); id.
§ 409.910(11)(f)(3) (deciding for purposes of the
statutory formula that attorney’s fees “shall be
calculated at 25 percent of the judgment, award, or
settlement”). The already-reduced total is then cut in
half, and AHCA is awarded the lesser of the amount it
actually paid or the resulting number. See id.
§ 409.910(11)(f)(1) (awarding AHCA “one-half of the
remaining recovery” after accounting for attorney’s
fees, “up to the total amount of medical assistance
provided by Medicaid”). The remaining amount is paid
to the Medicaid recipient. Id. §409.910(11)(f)(2).
The Medicaid recipient, however, may challenge
that formula-based allocation through an
administrative proceeding. To do so, the recipient must
either pay AHCA the formula-based reimbursement or
place those reimbursement funds in an interestbearing trust account and then file a petition with the
Division of Administrative Hearings in Tallahassee.
See id. § 409.910(17)(b) (outlining the administrative
procedure); id. § 409.910(17)(d) (“Venue for all
administrative proceedings pursuant to this subsection
lies in Leon County, at the discretion of the agency.”
(footnote omitted)). To successfully challenge the

App. 95
formula-based allocation and thus reduce the amount
payable to AHCA, “the recipient must prove, by clear
and convincing evidence, that a lesser portion of the
total recovery should be allocated as reimbursement for
past and future medical expenses than the amount”
required by the statutory formula. Id. § 409.910(17)(b).
That administrative process “is the exclusive method
for challenging” the formula-based allocation. Id.
C. Present Litigation
On November 19, 2008, Gianinna Gallardo
(“Gallardo”), then a thirteen-year-old student, suffered
severe and permanent injuries as a result of being
struck by a vehicle after she was dropped off by her
school bus. ECF No. 1, at 11. She is in a persistent
vegetative state and is no longer able to care for
herself. Id. Gallardo’s medical expenses were paid by
Medicaid and WellCare of Florida, which paid
$862,688.77 and $21,499.30, respectively. Id. at 12.
Gallardo’s parents filed suit in state court against
those allegedly responsible for her injuries—the truck’s
owner, the truck’s driver, and the Lee County School
Board. ECF No. 10-1. Gallardo sought past medical
expenses, future medical expenses, lost earnings, and
other damages, while her parents sought loss-ofconsortium damages. Id. As required by Florida law,
see § 409.910 (11)(a), AHCA was notified of that
lawsuit and, in turn, it asserted a lien against that
cause of action for the amount it expended for
Gallardo’s past medical expenses: $862,688.77. ECF
No. 1, at 17. Gallardo’s case eventually settled for
$800,000, and the court approved that settlement. Id.
at 13; see also ECF No. 10- 2 (approving the

App. 96
settlements). Thus, pursuant to Florida’s formulabased allocation, AHCA was due to be reimbursed
$323,508.29 in medical expenses.
Shortly after the settlement was finalized,
Gallardo’s counsel notified AHCA of the settlement by
letter. ECF No. 1, at 17–18. In that letter, counsel
explained that Gallardo’s damages were valued at over
$20,000,000, and that the settlement amounted to a
mere 4% recovery. Id. at 18. Thus, according to
Gallardo, only $35,367.52 of her $800,000 settlement
represented past medical expenses. Id. AHCA never
responded to Gallardo’s letter. Id.
Gallardo chose to contest AHCA’s lien through the
state administrative procedure outlined in
§ 409.910(17)(b). Id. She therefore followed the
necessary requirements; namely, depositing the
formula-based reimbursement of $323,508.29 into an
interest-bearing account and filing a petition with the
Division of Administrative Hearings in Tallahassee. Id.
In those proceedings, Gallardo has argued that
contrary to federal law, AHCA is endeavoring to
recover its past Medicaid payments from settlement
funds that do not represent compensation for past
medical expenses. Id. at 18–19. AHCA, however, has
argued that it is entitled to satisfy its lien from the
portion of Gallardo’s settlement representing
compensation for past and future medical expenses. Id
at 19. AHCA has further argued that Gallardo may
successfully challenge the formula-based allocation
only if she can prove by clear and convincing evidence
that the amount of her settlement representing past

App. 97
and future medical expenses is less than $323,508.29.
Id.
Gallardo brought this case seeking an injunction
and declaratory judgment that Florida’s
reimbursement statute violates federal law to the
extent it (1) allows ACHA to satisfy its lien beyond the
portion of her settlement representing compensation
for past medical expenses and (2) only allows her to
successfully challenge the formula-based allocation by
presenting clear and convincing evidence that that
amount is more than the portion of her settlement that
represents compensation for past medical expenses.
ECF No. 11, at 2. After this case was filed, the parties
moved the Administrative Law Judge to hold those
proceedings in abeyance, and that motion was granted
pending resolution of the instant case. ECF No. 10-3.
In this case, the parties have filed cross motions for
summary judgment. ECF Nos. 11–12 (Gallardo); ECF
Nos. 13–14 (AHCA).
II
Summary judgment is appropriate when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
parties agree to all material facts; thus, the only
disputes relate to questions of law. “‘Where the
unresolved issues are primarily legal rather than
factual, summary judgment is particularly
appropriate.’” Bruley v. Village Green Mgmt. Co., 592
F. Supp. 2d 1381, 1388 (M.D. Fla. 2008) (quoting Uhl
v. Swanstrom, 79 F.3d 751, 754 (8th Cir. 1996)).

App. 98
III
Gallardo contends that § 409.910 conflicts with
federal law and is therefore preempted to the extent
that it allows AHCA to satisfy its lien from a Medicaid
recipient’s recovery for future medical expenses. This
Court agrees.
When a statute’s text is unambiguous, as is the case
here, the court’s analysis begins and ends with the
text. Reeves v. Astrue, 526 F.3d 732, 734 (11th Cir.
2008) (citing CBS Inc. v. PrimeTime 24 Joint Venture,
245 F.3d 1217, 1222–25 (11th Cir. 2001)). That is
because “‘[i]f the statute speaks clearly to the precise
question at issue, [courts] must give effect to the
unambiguously expressed intent of Congress.’” Jackson
v. Comm’r of Soc. Sec., 601 F.3d 1268, 1271 (11th Cir.
2010) (quoting Barnhart v. Walton, 535 U.S. 212,
217–18 (2002)).
AHCA suggests that, given the Gordian knot that is
the Medicaid Act, the issue before this Court is “not an
easy” one to decide. ECF No. 14, at 3 & n.1. But as to
the issue presented to this Court, the Medicaid Act
could not be any clearer. By its plain language, it
prohibits AHCA from satisfying its lien from anything
but a Medicaid recipient’s recovery for past medical
expenses.
As a general matter, the anti-lien provision
prohibits AHCA from imposing a lien against the
property of a Medicaid recipient. § 1396p(a)(1). That
includes liens against “medical assistance paid or to be
paid.” Id (emphasis added). And although the thirdparty liability and assignment provisions are

App. 99
exceptions that grant AHCA a restricted right of
recovery, they are exceedingly narrow ones. See
Ahlborn, 547 U.S. at 284–85 (noting these are narrow
“exception[s] to the anti-lien provision” (citing Wash.
State Dep’t of Soc. and Health Servs. v. Guardianship
Estate of Keffeler, 537 U.S. 371, 383–85 & n.7 (2003))).
A plain reading of the statutory text shows that
AHCA’s right of recovery is even narrower than it
suggests; namely, it only applies to payments made for
past medical expenses. To simplify this Court’s
analysis, the critical statutory language is italicized.
The anti-lien provision prohibits ACHA from seeking
reimbursement from a recipient’s recovery for “medical
assistance paid or to be paid.” § 1396p(a) (emphasis
added). But “to the extent that payment has been made
under the State plan for medical assistance,” AHCA
may assert a lien or otherwise acquire a Medicaid
recipient’s rights “to payment by any other [third]
party for such [furnished] health care items or services.”
§ 1396a(a)(25)(H). That necessarily suggests that
AHCA may only seek reimbursement from funds
representing payments for medical expenses that it
previously made on the beneficiary’s behalf. See
McKinney ex rel. Gage v. Phila. Housing Auth., No. 074432, 2010 WL 3364400, at *9 (E.D. Pa. Aug. 24, 2010)
(“It is clear from a reading of the statutory language
that the italicized word ‘such’ refers to the ‘payment
[that] has been made’—that is, the payments the state
made on the beneficiary’s behalf in the past for medical
expenses.” (emphasis in original)).
Other provisions bolster that conclusion. For
example, §§ 1396a(a)(25)(A)–(B) direct AHCA to seek

App. 100
reimbursement only to the extent of the third party’s
liability “to pay for care and services available under
the plan . . . .” See Ahlborn, 547 U.S. at 280 (“‘[S]uch
legal liability’ refers to ‘the legal liability of third
parties . . . to pay for care and services available under
the plan.’” (quoting § 1396a(a)(25)(A)) (emphasis in
original)). Similarly, § 1396k(b) suggests that AHCA
may only be reimbursed “for medical assistance
payments made on behalf of an individual with respect
to whom such assignment was executed . . . .” The
Medicaid statute’s text is unambiguous and must
therefore be followed; AHCA cannot reimburse itself
for its past medical expenses from portions of the
recipient’s recovery allocated to compensate for future
medical expenses.3
Although the Supreme Court has not addressed this
precise issue, related cases suggest it would reach the
same conclusion. Take Ahlborn, for example. There, the
Court held that a state may satisfy its Medicaid lien
only through the portion of a recovery allocated for
medical expenses. See Ahlborn, 547 U.S. at 281
(limiting reimbursement to “medical expenses—not lost
wages, not pain and suffering, not an inheritance”). In
reaching that conclusion, it reasoned that “the federal
3

See, e.g., In re E.B., 729 S.E.2d 270, 299 n.35 (W. Va. 2012)
(agreeing that “Ahlborn is more consistent with limiting a state’s
recovery to settlement proceeds that are allocated to past medical
expenses, rather than to proceeds allocated to both past and future
medical expenses generally”); McKinney, 2010 WL 3364400, at *9
(“Therefore, it would appear that [the state agency] cannot draw
on portions of the settlement designed to compensate for future
medical expenses in order to reimburse itself for past medical
expenditures.” (emphasis in original)).

App. 101
third-party liability provisions require an assignment
of no more than the right to recover that portion of a
[recovery] that represents payments for medical care.”
Id. at 282 (emphasis added and in original). Likewise,
the Supreme Court later emphasized that states may
“seek reimbursement for medical expenses paid on the
beneficiary’s behalf, but the anti-lien provision protects
the beneficiary’s interest in the remainder of the
settlement.” Wos v. E.M.A. ex rel. Johnson, 133 S. Ct.
1391, 1397 (2013) (emphasis added) (citing Ahlborn,
547 U.S. at 284). The Supreme Court’s references to
“past medical expenses” and “medical expenses paid”
support the conclusion that state agencies may not
seek reimbursement of their past Medicaid payments
from portions of a recipient’s recovery representing
future medical expenses.
Of course, this Court acknowledges that other
courts have disagreed. See Special Needs Trust for
K.C.S. v. Folkemer, No. 8:10-cv-1077, 2011 WL
1231319, at *12 (D. Md. Mar. 28, 2011) (“The fact that
the settlement in this case contained unstipulated
amounts that might represent payments for future
medical expenses, and the fact that the Department is
seeking to recover from this unstipulated amount does
not violate the anti-lien provision . . . .”); IP ex rel.
Cardenas v. Henneberry, 795 F. Supp. 2d 1189, 1197
(D. Colo. 2011) (concluding that the state agency “may
seek reimbursement for its past medical expenses from
funds allocated to ‘medical expenses,’ regardless of
whether those funds are allocated for past or future
medical expenses”); In re Matey, 213 P.3d 389, 394
(Idaho 2009) (“Nothing in 42 U.S.C § 1396p indicates
that the State may not seek recovery of its payments

App. 102
from a Medicaid recipient’s total award of damages for
medical care whether for past, present, or future
care.”). Those cases are non-binding. That aside, those
cases are not persuasive because the courts do not
address the language referencing past medical
expenses highlighted in Ahlborn, Wos, or
§§ 1396a(a)(25)(A)–(B), 1396a(a)(25)(H), and 1396k.
AHCA cites to other provisions in § 1396k to argue
that it may seek reimbursement for past medical
expenses through portions of a recipient’s recovery
allocated to compensate for future medical expenses.
ECF No. 14, at 16–18. Specifically, it references
language in § 1396k(a)(1)(A) that requires the recipient
“to assign the State any rights . . . to support . . . and to
payment for medical care from any third party.”
According to AHCA, “payment for medical care”
contemplates all medical care—including future
medical care. ECF No. 14, at 17.
That argument is clever, yet ultimately
unconvincing. “[C]ourts cannot use tunnel vision when
construing statutes; rather, statutes must be
considered as a whole.” Fla. Democratic Party v. Scott,
No. 4:16-cv-626, 2016 WL 6080990, at *2 (N.D. Fla.
Oct. 10, 2016) (Walker, J.) (citing John Hancock Mut.
Life Ins. Co. v. Harris Trust & Sav. Bank, 510 U.S. 86,
94 (1993)). Moreover, “specific statutes prevail over
general ones.” Id. (citing D. Ginsberg & Sons v. Popkin,
285 U.S. 204, 208 (1932)). The Supreme Court thus
construes the assignment provision in § 1396k(a)
identically as the one in § 1396a(a)(25); indeed, it has
stated that § 1396a(a)(25)(H)—which limits recovery
“to the extent that payment has been made . . . for

App. 103
medical assistance for health care items or services
furnished to” a recipient—”echoes the requirement of
mandatory assignment rights in § 1396k(a)[.]” Ahlborn,
547 U.S. at 281. Because § 1396k(a) is not interpreted
as narrowly as AHCA suggests, its blinders-on
approach is unavailing.
This Court concludes that federal law prohibits
state agencies from seeking reimbursement of past
Medicaid payments from portions of a recipient’s
recovery that represents future medical expenses.
Florida’s statute is therefore preempted if and to the
extent that it operates that way. See Irving v. Mazda
Motor Corp., 136 F.3d 764, 768 (11th Cir. 1998)
(“Conflict preemption exists where state law actually
conflicts with federal law, making it impossible to
comply with both, or where the state law ‘stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.’” (quoting
Lewis v. Brunswick Corp., 107 F.3d 1494, 1500 (11th
Cir. 1997))). And for that reason it is preempted.
Florida law does not prohibit AHCA from asserting a
lien on portions of a recipient’s recovery representing
future medical expenses; in fact, it explicitly allows it
to do just that. § 409.910(17)(b) (allowing AHCA to
recover from the “portion of the total recovery . . . for
past and future medical expenses” (emphasis added)).
Accordingly, that portion of the statute is preempted.
IV
Gallardo also asserts that § 409.910 and its onesize-fits-all statutory formula—which the Medicaid
recipient may only rebut by presenting clear and

App. 104
convincing evidence to the contrary—violates due
process and is preempted by federal law.
A
At first glance, Gallardo’s due-process argument is
both circular and conclusory. According to her, the
reimbursement statute violates due process because it
takes the recipient’s property without affording it
adequate process. Reading between the blurred lines of
her gaunt argument, however, this Court can conceive
of two possible due-process challenges.
Gallardo could first argue, and it appears she does,
that Florida’s reimbursement statute effectively turns
due process on its head. The argument goes as follows.
Florida’s statutory formula violates the Due Process
Clause by allowing AHCA to take Gallardo’s
property—namely, the settlement funds not allocated
for past medical expenses—and only allowing her to
recover those funds if she can affirmatively disprove
the formula-based allocation with clear and convincing
evidence. In support, Gallardo cites cases holding that
“the State’s power to regulate procedural burdens [is]
subject to proscription under the Due Process Clause if
it ‘offends some principle of justice so rooted in the
traditions and conscience of our people as to be ranked
as fundamental[.]’” Cooper v. Oklahoma, 517 U.S. 348,
367 (1996) (citing Patterson v. New York, 432 U.S. 197,
201–02 (1977)); see also Del Valle v. State, 80 So.3d
999, 1013 (Fla. 2011) (holding that the necessity of
certain criminal procedures “is rooted in the
fundamental fairness notion required by due process”).
But this case just doesn’t involve such a rule. Those
cases highlight rare circumstances where a person is

App. 105
deprived of something so fundamental that imposing a
heightened burden to challenge that deprivation
violates the Due Process Clause. And in fact, those
cases make explicit that the mere deprivation of money
is not one of those rare circumstances. See Cooper, 517
U.S. at 363 (distinguishing the “‘mere loss of money’”
from other civil proceedings where due process allows
a heightened burden of proof (citing Santosky v.
Kramer, 455 U.S. 745, 756 (1982))). Those cases are
therefore readily distinguishable.
Alternatively, Gallardo could have asserted that
Florida’s reimbursement statute violates the Due
Process Clause because it does not provide notice and
a meaningful opportunity to be heard. See Mathews v.
Eldridge, 424 U.S. 319, 349 (1976) (stating that “the
essence of due process is the requirement that” a
person be provided notice and a “meaningful
opportunity to present their case”). It is undisputed
that Medicaid recipients are provided notice. Thus, the
only issue is whether Florida’s reimbursement statute
grants recipients a meaningful opportunity to be heard.
Gallardo could have argued that it doesn’t; that is, by
placing such an onerous burden on Medicaid recipients
to regain their property, Florida has so drastically
undermined § 409.910's post-deprivation remedy that
it is essentially nonexistent and thus inadequate under
federal law. See Hamlin v. Vaudenberg, 95 F.3d 580,
585 (7th Cir. 1996) (holding that a “meaningless or
nonexistent” post-deprivation remedy is inadequate).
But that argument was not made, and this Court will
not go out of its way to decide an issue that is not
before it. This is particularly true where, as here, this
Court explicitly asked Gallardo’s counsel to define the

App. 106
contours of her due process claim at the hearing and
whether he was making this specific argument, and
counsel redirected this Court to Cooper and its
progeny.
B
Secondly, and more broadly, Gallardo argues that
Florida’s entire reimbursement statute conflicts with
and is preempted by federal law. To the extent that
Medicaid recipients must affirmatively disprove the
arbitrary formula-based allocation with clear and
convincing evidence to successfully overcome it, this
Court agrees.
One particular issue relevant to this case remained
undecided after Ahlborn. Because states may not seek
reimbursement from “any part of a Medicaid
beneficiary’s tort recovery ‘not designated as payments
for medical care,’” how can states “determine what
portion of a settlement represents payment for medical
care[?]” Wos, 133 S. Ct. at 1397–98 (quoting Ahlborn,
547 U.S. at 284). In Wos, the Supreme Court
considered a North Carolina statute that “establishe[d]
a conclusive presumption that one-third of the
[Medicaid recipient’s] recovery represents
compensation for medical expenses.” Id. at 1398. The
Court recognized that while some “rebuttable
presumptions and adjusted burdens of proof” may
comply with the Medicaid statute, “[a]n irrebuttable,
one-size-fits-all statutory presumption” that a predetermined percentage of the recipient’s recovery
constitutes “payment for medical care” does not. Id. at
1398–99, 1401 (citations omitted). That is particularly
so if the state has not provided evidence that such an

App. 107
allocation was “reasonable in the mine run of cases”
and has no process “for determining whether [such an
allocation] is a reasonable approximation in any
particular case.” Id. at 1398–99. Because North
Carolina’s irrebuttable, one-size-fits-all statutory
presumption allowed “the State to take a portion of a
Medicaid beneficiary’s tort judgment or settlement not
‘designated as payments for medical care[,]’” id. at 1402
(quoting Ahlborn, 547 U.S. at 284), it was preempted
by federal law.
Florida’s statute suffers from that same defect, yet
for more nuanced reasons. And this Court is not
reaching that conclusion just because Florida’s
reimbursement statute doesn’t pass the “smell test.”
Rather, the Supreme Court has provided an effective
framework to analyze this kind of scenario—a
rebuttable presumption that is nearly impossible to
rebut. Specifically, Wos teaches that states cannot
accomplish through creative legislative draftsmanship
that which is prohibited under federal law. See Wos,
133 S. Ct. at 1398 (“A State may not evade the preemptive force of federal law by resorting to creative
statutory interpretation or description at odds with the
statute’s intended operation and effect.” (citing Nat’l
Meat Assn. v. Harris, 565 U.S. 452 (2012))). That is
because “[i]n a pre-emption case . . . a proper analysis
requires consideration of what the state law in fact
does, not how the litigant might choose to describe it.”
Id. In other words, preemption “is not a matter of
semantics.” Id.
But that is precisely what Florida has tried to do
here; namely, evade federal law by enacting a

App. 108
“rebuttable” one-size-fits-all statutory formula that
almost by definition allows AHCA to obtain more than
that which it is entitled to. And by setting a baseline
wholly detached from any rational standard—for
instance, the federal Medicaid statute, Supreme Court
case law, or AHCA’s past medical expenditures in that
specific case—it does so in a wildly arbitrary fashion.
Like in Wos, nothing in the record helps explain
why Florida chose the precise formula that it did. It is
therefore impossible to judge whether it is “likely to
yield reasonable results in the mine run of cases.” Id.
at 1402. If this case is any example, it is not likely to do
so. When the Florida legislature amended the
reimbursement statute, it had the benefit of Wos and
knew what changes were required to comply with
federal law. See ECF No. 10-5, at 5. But rather than
trying to adequately address Wos through thoughtful
amendments, the Florida legislature simply slapped a
band-aid on the reimbursement statute by calling the
formula-based allocation rebuttable and requiring the
recipient to meet a heightened burden to successfully
challenge it. That superficial response is simply not
enough.
Similarly, although not before this Court, Florida’s
reimbursement statute ignores that “[w]hen there has
been a judicial finding or approval of an allocation
between medical and nonmedical damages—in the
form of either a jury verdict, court decree, or
stipulation binding on all parties—that is the end of
the matter.” Wos, 133 S. Ct. at 1399. In Florida, not
even a jury’s allocation is immune from the
reimbursement statute. See § 409.910(11)(f) (applying

App. 109
Florida’s statutory formula to any case “in which the
recipient or his or her legal representative is a party
which results in a judgment, award, or settlement from
a third party”). That is further evidence that Florida
did not adequately tailor its reimbursement statute to
federal law.
Moreover, Florida’s arbitrary statutory formula—
which plucks a 25% figure for attorney’s fees out of
mid-air—allows AHCA to take even more money than
it is entitled to. The Rules Regulating the Florida Bar
allow attorneys to set their fee on a sliding scale up to
40% of the plaintiff’s recovery.4 See R. Regulating Fla.
Bar 4–1.5(f)(4)(B)(I) (2017) (allowing an attorney to
charge a contingent fee up to 33.3% of any recovery up
to $1 million before the filing of an answer and up to
40% after the filing of an answer). Florida’s statutory
formula, however, only reserves 25% of the judgment
for attorney’s fees. That necessarily strips even more
money from the recipient.
An example is helpful. Imagine that AHCA asserts
a $300,000 lien against a recipient’s cause of action as
reimbursement for expenditures it made on the
4

That figure is conditioned on whether an answer has been filed
or whether a demand for appointment of arbitrators has been
made. Before either of those conditions occurs, Plaintiff’s attorneys
may charge “33 1/3% of any recovery up to $1 million,” plus “30%
of any portion of the recovery between $1 million and $2 million,”
plus “20% of any portion of the recovery exceeding $2 million.” R.
Regulating Fla. Bar 4–1.5(f)(4)(B)(i)(a) (2017). After one of those
conditions occur, Plaintiff’s attorneys may charge “40% of any
recovery up to $1 million,” plus “30% of any portion of the recovery
between $1 million and $2 million,” plus “20% of any portion of the
recovery exceeding $2 million.” Id. 4– 1.5(f)(4)(B)(i)(b).

App. 110
recipient’s behalf. Because of liability issues, the
recipient settles the case for $100,000—$10,000 of
which represents past medical expenses. Since the
recovery is less than AHCA’s lien, the formula-based
allocation applies. Given the Florida Bar’s rules for
attorney’s fees, the recipient’s attorney in either
scenario could receive up to $40,000, and let’s say he
does. Assuming a hypothetical formula tied to the
Florida Bar’s attorney’s fees rules—meaning that 40%
of the recipient’s recovery is reserved for attorney’s
fees—and further assuming that the recipient is not
able to rebut the formula-based allocation, AHCA and
the recipient would both receive $30,000. Yet under
Florida’s actual statutory formula, AHCA would
receive $37,500, which would leave only $22,500 for the
recipient—$7,500 less than the recipient would have
received under the hypothetical formula.
Hypothetical
FormulaBased
Allocation tied
to the Florida
Bar’s
Attorney’s
Fees Rules

§ 409.910(17)’s
FormulaBased
Allocation

$40,000

$40,000

AHCA’s
$30,000
Reimbursement

$37,500

Recipient
Recovery

$22,500

Attorney’s
Fees

$30,000

App. 111
Consequently, Florida’s statutory formula allows
AHCA to pocket even more money it would have been
entitled to under a formula tailored to the Florida Bar’s
attorney’s fees rules.
That result is not an accident. Florida did not hide
the ball here; rather, it made explicit its intent to tilt
the scales in AHCA’s favor. See ECF No. 10-4, at 4
(opining that § 409.910's current iteration “increase[es]
the likelihood the State will prevail in defending
Medicaid liens,” “result[s] in an increase in [third-party
liability] collections[,]” and “reduc[es] the expense and
staff time” required to defend Medicaid liens). That is
consistent with the Florida legislature’s intent “that
Medicaid be the payor of last resort for medically
necessary goods and services furnished to Medicaid
recipients.” § 409.910(1).
The arbitrary nature of Florida’s reimbursement
statute alone is likely enough to rule that it is
preempted. See Wos, 133 S. Ct. at 1398 (“If a State
arbitrarily may designate one-third of any recovery as
payment for medical expenses, there is no logical
reason why it could not designate half, three-quarters,
or all of a tort recovery in the same way.”). Yet it gets
worse. On top of that arbitrary baseline, Florida has
shifted the burden to the Medicaid recipient to prove
that she is entitled to that which is already hers. And
that burden is a particularly onerous one. Cf. Mfg.
Research Corp. v. Graybar Elec. Co., Inc., 679 F.2d
1355, 1360 (11th Cir. 1982) (suggesting that a clear
and convincing burden “is an onerous one”); Gordon v.
Dennis Burlin Sales, Inc., 174 B.R. 257, 259 (Bankr.
N.D. Ohio 1994) (stating that “a clear and convincing

App. 112
evidence standard . . . is a more onerous burden of
proof” (citing In re Smith, 170 B.R. 111 (Bankr. N.D.
Ohio 1994))).
What makes Florida’s reimbursement statute and
AHCA’s application of that statute even more
pernicious is that AHCA has both the authority and
the capability to seek its reimbursement directly from
the responsible third party (or, as here, parties). See
§ 409.910(11) (“The agency may, as a matter of right, in
order to enforce its rights under this section, institute,
intervene in, or join any legal or administrative
proceeding in its own name in one or more of [a variety
of] capacities[.]”). Yet in this case and many others, it
simply chooses not to. And the effect of that choice
should not be overlooked. Rather than paying its own
attorneys to recover these funds, AHCA shifts a
disproportionate share of the costs to the
recipient—costs which come directly out of the
recipient’s recovery. Then AHCA seeks its
reimbursement directly from the recipient’s alreadyreduced recovery.
At a certain point, requiring a Medicaid recipient to
overcome a hodgepodge of hurdles amounts to a quasiirrebuttable presumption. That is the case here;
although Florida’s reimbursement statute—which
requires Medicaid recipients to overcome obstacle after
obstacle just to keep a portion of the judgment that the
recipient is already entitled to—may be “rebuttable,” in
practice, it is a quasi-irrebuttable one.5 Yet that flouts

5

AHCA’s reference to other administrative proceedings where
Medicaid recipients successfully rebutted the formula-based

App. 113
federal law. Because Florida cannot save its
reimbursement statute through wily draftsmanship,
see Wos, 133 S. Ct. at 1398 (“A state may not evade the
pre-emptive force of federal law by resorting to creative
statutory interpretation or description at odds with the
statute’s intended operation and effect.”), it is therefore
preempted.
In so ruling, this Court wants to make itself
absolutely clear. This Court is not saying that Florida
may not enact a rebuttable, formula-based allocation to
determine what portion of a judgment represents past
medical expenses; in fact, the Supreme Court has
suggested, without holding, just the opposite. See id. at
1402 (mentioning that states “may even be able to
adopt ex ante administrative criteria for allocating
medical and nonmedical expenses”); see also Ahlborn,
547 U.S. at 288 n.18 (suggesting that states can enact
“special rules and procedures for allocating tort
settlements”). Nor is it saying that Florida may not
shift the burden to Medicaid recipients to disprove that
allocation; that issue is not before this Court, but it
probably can. See Wos, 133 S. Ct. at 1401 (implying
that certain “rebuttable presumptions and adjusted
burdens of proof” may be “compliant with the federal
statute”).
And although this Court doesn’t get to rewrite
Florida’s statute—and it doesn’t endeavor to do so—it

allocation does not undermine this conclusion. It is of no matter
how certain Administrative Law Judges apply Florida’s
reimbursement statute; their application of that statute isn’t
before this Court. The statute itself is.

App. 114
can say when a Florida statute runs afoul of federal
law. See Fresenius Med. Care Holdings, Inc. v.
Francois, 832 F. Supp. 2d 1364, 1367 (N.D. Fla. 2011)
(Mickle, J.) (“Other times, preemption is implied, such
as when . . . the state and federal law are in such
conflict that their objectives are at odds or when it
would be impossible to comply with both (known as
conflict preemption).” (citing Fla. State Conference of
the NAACP v. Browning, 522 F.3d 1153, 1167 (11th
Cir. 2008))). It does here. The reimbursement statute’s
clear and convincing burden—when coupled with a
formula-based baseline wholly divorced from reality
and a requirement that the recipient affirmatively
disprove that baseline to successfully rebut it—is in
direct conflict with the Medicaid statute’s anti-lien and
antirecovery provisions. Thus, in this specific scenario,
Florida’s clear and convincing burden is preempted by
federal law.
Accordingly,
IT IS ORDERED:
1. Gallardo’s Motion for Summary Judgment,
ECF No. 11, is GRANTED.
2. AHCA’s Motion for Summary Judgment,
ECF No. 13, is DENIED.
3. In its current form, § 409.910, Fla. Stat.
(2016), is preempted by federal law; namely,
42 U.S.C. § 1396a, 42 U.S.C. § 1396k, and 42
U.S.C. § 1396p.
4. The Clerk shall enter judgment stating:

App. 115
Gianinna Gallardo, an incapacitated person,
by and through her parents and coguardians, Pilar Vassallo and Walter
Gallardo, successfully proved that portions of
§ 409.910(17)(b), Fla. Stat. (2016) are
preempted by federal law. The State of
Florida Agency for Health Care
Administration is therefore enjoined from
enforcing that statute in its current form.
It is declared that the federal Medicaid Act
prohibits the State of Florida Agency for
Health Care Administration from seeking
reimbursement of past Medicaid payments
from portions of a recipient’s recovery that
represents future medical expenses.
It is also declared that the federal Medicaid
Act prohibits the State of Florida Agency for
Health Care Administration from requiring
a Medicaid recipient to affirmatively
disprove Florida Statutes § 409.190(17)(b)’s
formula-based allocation with clear and
convincing evidence to successfully challenge
it where, as here, that allocation is arbitrary
and there is no evidence that it is likely to
yield reasonable results in the mine run of
cases.
5. The Clerk shall close the file.
SO ORDERED on April 18, 2017.
s/ MARK E. WALKER _______
United States District Judge

App. 116

APPENDIX E
STATE OF FLORIDA
DIVISION OF ADMINISTRATIVE HEARINGS
Case No. 15-6960MTR
[Filed: June 14, 2016]
____________________________________
GIANNINNA GALLARDO,
)
BY AND THROUGH HER
)
PARENTS AND CO-GUARDIANS
)
PILAR VASSALLO AND
)
WALTER GALLARDO,
)
)
Petitioner,
)
)
vs.
)
)
AGENCY FOR HEALTH CARE
)
ADMINISTRATION,
)
)
Respondent.
)
____________________________________)
ORDER CANCELING HEARING AND PLACING
CASE IN ABEYANCE
On June 13, 2016, the parties filed the Joint Motion
to Abate Proceedings. It is
ORDERED that:

App. 117
1. The final hearing scheduled for July 11, 2016, is
canceled.
2. The case is placed in abeyance.
3. The parties shall confer and advise the
undersigned in writing when judgement is entered in
the Federal 1983 Action or within six months,
whichever occurs sooner, as to the status of this matter
and as to the length of time required for the final
hearing and several mutually-agreeable dates for
scheduling the final hearing should one be necessary.
Failure to timely advise will result in the conclusion
that this cause has been amicably resolved, and the file
of the Division of Administrative Hearings will be
closed.
DONE AND ORDERED this 14th day of June,
2016, in Tallahassee, Leon County, Florida.
/s/ Robert E. Meale___
S ROBERT E. MEALE
Administrative Law Judge
Division of Administrative Hearings
The DeSoto Building
1230 Apalachee Parkway
Tallahassee, Florida 32399-3060
(850) 488-9675
Fax Filing (850) 921-6847
www.doah.state.fl.us
Filed with the Clerk of the
Division of Administrative Hearings
this 14th day of June, 2016.

App. 118
COPIES FURNISHED:
Alexander R. Boler, Esquire
2073 Summit Lake Drive, Suite 300
Tallahassee, Florida 32317
(eServed)
Floyd B. Faglie, Esquire
Staunton and Faglie, P.L.
189 East Walnut Street
Monticello, Florida 32344
(eServed)

App. 119

APPENDIX F

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-13693
D.C. Docket No. 4:16-cv-00116-MW-CAS
[Filed: October 20, 2020]
_______________________________________
GIANINNA GALLARDO,
)
an incapacitated person, by and
)
through her parents and co-guardians
)
Pilar Vassallo and Walter Gallardo,
)
)
Plaintiff - Appellee, )
)
versus
)
)
ELIZABETH DUDEK,
)
in her official capacity as Secretary
)
of the Florida Agency for Health Care
)
Administration,
)
)
Defendant,
)
)

App. 120
MARY MAYHEW,
in her official capacity as Secretary
of the Florida Agency for Health Care
Administration,
Defendant - Appellant.

)
)
)
)
)
)

Appeal from the United States District Court
for the Northern District of Florida
Before WILSON, BRANCH, and ANDERSON, Circuit
Judges.
BRANCH, Circuit Judge:
No judge in regular active service on the Court
having requested that the Court be polled on rehearing
en banc, the Petition for Rehearing En Banc is
DENIED. The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel
and is DENIED.1
Although it is unfortunate that our interpretation
of federal law conflicts with the Florida Supreme
Court’s interpretation of federal law and presents a
forum shopping possibility, we cannot for that reason
endorse an incorrect interpretation of federal law. Our
system of federalism allows for parallel state and
federal interpretations of federal law. See Casale v.
Tillman, 558 F.3d 1258, 1260 (11th Cir. 2009) (per
curiam). Moreover, we are not bound by a state court’s
interpretation of federal law. See Venn v. St. Paul Fire
& Marine Ins. Co., 99 F.3d 1058, 1064 (11th Cir. 1996);

1

Judge Wilson would grant the petition for panel rehearing.

App. 121
See also, e.g., RAR, Inc. v. Turner Diesel, Ltd., 107 F.3d
1272, 1276 (7th Cir. 1997) (“Although state court
precedent is binding upon us regarding issues of state
law, it is only persuasive authority on matters of
federal law.”). Accordingly, we deny Gallardo’s petition
for panel rehearing.
WILSON, Circuit Judge, dissenting from denial of
rehearing by the panel:
Medicaid recipients in Florida have a forumshopping problem. In 2018, a unanimous Florida
Supreme Court held that the Medicaid Act partially
preempts Florida Statutes § 409.910(17)(b). See
Giraldo v. Agency for Health Care Admin., 248 So. 3d
53 (Fla. 2018). That statute lets Florida siphon money
from the part of a recipient’s tort recovery that
represents payment for the recipient’s past and future
medical care. But six justices of the Florida Supreme
Court held that the plain text of the Medicaid Act
limits Florida to just the part of the recovery that
represents payment for past medical care. Id. at 56.
One justice held that the Supreme Court of the United
States specifically decided this issue in Arkansas
Department of Health & Human Services v. Ahlborn,
547 U.S. 268 (2006). Id. at 57–58 (Polston, J.,
concurring specially in part and dissenting in part).
Two years later, this court held just the opposite.
See Gallardo by & through Vassallo v. Dudek, 963 F.3d
1167, 1171 (11th Cir. 2020). A fractured panel
dismissed the Florida Supreme Court’s construction of
the Medicaid Act as a “mistake in logic.” Id. at 1178. It
ruled that the Medicaid Act lets Florida recover from
the part of the recipient’s recovery that represents

App. 122
payment for both past and future medical care. Id. at
1180.
I dissented for three reasons. For one, the plain text
of the Medicaid Act limits Florida to just the part of the
recovery representing payment for the care that
Florida fronted first—the recipient’s past medical care.
Id. at 1184–87 (Wilson, J., concurring in part and
dissenting in part). For another, the Supreme Court
decided this issue in Ahlborn, holding that the state
there could recover from only the part of the recovery
representing payment for past medical care. Id. at
1188–91. And for a third, almost every court to
consider this issue has rejected the majority’s view,
adopting instead the Florida Supreme Court’s position
that the state can recover from only the past-medicalcare part of the recipient’s tort recovery. Id. at 1191–92
(citing E.M.A. ex rel. Plyler v. Cansler, 674 F.3d 290,
307, 312 (4th Cir. 2012), aff’d sub nom. on other
grounds Wos v. E.M.A. ex rel. Johnson, 568 U.S. 627
(2013); McKinney ex rel. Gage v. Phila. Hous. Auth.,
2010 WL 3364400, at *9 (E.D. Pa. Aug. 24, 2010); Price
v. Wolford, 2008 WL 4722977, at *2 (W.D. Okla. Oct.
23, 2008); Sw. Fiduciary, Inc. v. Ariz. Health Care Cost
Containment Sys. Admin., 249 P.3d 1104, 1108–10
(Ariz. Ct. App. 2011); In re Estate of Martin, 574
S.W.3d 693, 696 (Ark. App. 2019), reh’g denied (Ark.
App. Apr. 24, 2019); Bolanos v. Superior Court, 87 Cal.
Rptr. 3d 174, 179–81 (Cal. App. 4th 2008); Lugo ex rel.
Lugo v. Beth Israel Med. Ctr., 819 N.Y.S.2d 892,
895–96 (N.Y. Sup. Ct. 2006); In re E.B., 729 S.E.2d 270,
453 (W. Va. 2012); Latham v. Office of Recovery Servs.,
2019 UT 51, ¶ 20 (Utah 2019), cert. denied, Office of
Recovery Servs. v. Latham, 140 S. Ct. 852 (2020)).

App. 123
These points underscore “that the majority view, not
the majority’s view, is the right one.” Id. at 1192.
I also previewed what would flow from the
majority’s mistake: forum shopping in its purest form.
See id. at 1192–93. “Florida Medicaid recipients will
now head to state administrative court to benefit from
the Florida Supreme Court’s holding in Giraldo.” Id.
“Meanwhile, Florida may seek declaratory relief in
federal court to bypass Giraldo and benefit from our
holding in Gallardo.” Id. at 1193. “That holding will
bind our district courts to declare that the Medicaid
Act does not preempt Florida’s attempt to recover from
the part of the recipient’s recovery that represents
payment for future medical care.” Id. “And then Florida
will take the federal-court judgment to state court and
argue that it has a preclusive effect on the recipient.”
Id.
Even then, it was clear that this consequence was
“far from hypothetical”: Florida has admitted that it
will use “the preclusive effect of our judgment in state
administrative court.” Id. Yet that stance sets the stage
for a bizarre outcome. In the weeks since the majority’s
ruling, at least two Florida courts have held that
Giraldo controls in Florida’s state courts, while
Gallardo controls in the Eleventh Circuit’s federal
courts. See Jones v. Agency for Health Care Admin.,
2020 WL 4259195, at *8 (Fla. DOAH July 17, 2020);
Bonnett v. Agency for Health Care Admin., 2020 WL
4378897, at *4 n.3 (Fla. DOAH July 22, 2020). But
when Florida wins a federal judgment first and brings
the judgment back to state court, res judicata
principles will “perversely” compel “the state

App. 124
administrative court [to] apply the Eleventh Circuit’s
decision in Gallardo, rather than the Florida Supreme
Court’s decision in Giraldo.” Gallardo, 963 F.3d at
1193 (Wilson, J., concurring in part and dissenting in
part).
That’s a problem. The risk that “the same event
may be judged by two different laws, depending upon
whether a state court or a federal forum within that
state is available” is precisely the “type of evil” that the
Supreme Court sought to curb in Erie Railroad Co. v.
Tompkins, 304 U.S. 64 (1938). See Wells v. Simonds
Abrasive Co., 345 U.S. 514, 521 (1953) (Jackson, J.,
dissenting). Within these cracks in the law’s forumshopping armor, randomness and inequity abound.
Pick-your- law scenarios “can empower strong, well-off,
and sophisticated parties”—like a state—to the
detriment of “paradi gmatically worse-off
part[ies]”—like a Medicaid recipient. See Ori Aronson,
Forum by Coin Flip: A Random Allocation Model for
Jurisdictional Overlap, 45 SETON HALL L. REV. 63,
75–76 (2015). They sanction “inequitable
administration of the laws” in a system that strives for
equal justice. See Hanna v. Plumer, 380 U.S. 460, 468
(1965). And they “encourage gamesmanship”—like a
state wielding a federal-court judgment to bypass its
own state supreme court’s ruling. See Atl. Marine
Const. Co. v. U.S. Dist. Court for W. Dist. of Tex., 571
U.S. 49, 65 (2013).
Unfortunately, there is nothing left to do in the
Eleventh Circuit or the Florida Supreme Court. The
dust in those courts have settled, leaving each on
different sides of the chasm. Until their differences are

App. 125
reconciled, though, Florida Medicaid recipients must
straddle two worlds: one where they win, and one
where they lose. It is an arrangement as arbitrary as it
is wrong; a system that awards first place not to the
winner of the case, but to the winner of the race to the
courthouse. At some point, someone must decide
whether Giraldo or Gallardo got it right.
I remain steadfast in my view that Gallardo got it
wrong. As most courts have long held, the Medicaid Act
prevents Florida from robbing its recipients of tort
payments paid for their future medical burdens. I
dissent from the denial of rehearing by the panel.

App. 126

APPENDIX G
STATUTORY PROVISIONS INVOLVED
42 U.S. Code § 1396a - State plans for medical
assistance
(a) Contents
A State plan for medical assistance must—
* * *
(25) provide –
(A) that the State or local agency administering such
plan will take all reasonable measures to ascertain the
legal liability of third parties (including health
insurers, self-insured plans, group health plans (as
defined in section 607(1) of the Employee Retirement
Income Security Act of 1974 [29 U.S.C. 1167(1)]),
service benefit plans, managed care organizations,
pharmacy benefit managers, or other parties that are,
by statute, contract, or agreement, legally responsible
for payment of a claim for a health care item or service)
to pay for care and services available under the plan,
including—
(i) the collection of sufficient information (as
specified by the Secretary in regulations) to
enable the State to pursue claims against such
third parties, with such information being
collected at the time of any determination or

App. 127
redetermination
assistance, and

of

eligibility

for

medical

(ii) the submission to the Secretary of a plan
(subject to approval by the Secretary) for
pursuing claims against such third parties,
which plan shall be integrated with, and be
monitored as a part of the Secretary’s review of,
the State’s mechanized claims processing and
information retrieval systems required under
section 1396b(r) of this title;
(B) that in any case where such a legal liability is
found to exist after medical assistance has been made
available on behalf of the individual and where the
amount of reimbursement the State can reasonably
expect to recover exceeds the costs of such recovery, the
State or local agency will seek reimbursement for such
assistance to the extent of such legal liability;
***
***
***
***
***
(H) that to the extent that payment has been made
under the State plan for medical assistance in any case
where a third party has a legal liability to make
payment for such assistance, the State has in effect
laws under which, to the extent that payment has been
made under the State plan for medical assistance for
health care items or services furnished to an

App. 128
individual, the State is considered to have acquired the
rights of such individual to payment by any other party
for such health care items or services; and
***
42 U.S. Code § 1396k - Assignment,
enforcement, and collection of rights of
payments for medical care; establishment of
procedures pursuant to State plan; amounts
retained by State
(a) For the purpose of assisting in the collection of
medical support payments and other payments for
medical care owed to recipients of medical assistance
under the State plan approved under this subchapter,
a State plan for medical assistance shall—
(1) provide that, as a condition of eligibility for
medical assistance under the State plan to an
individual who has the legal capacity to execute
an assignment for himself, the individual is
required—
(A) to assign the State any rights, of the
individual or of any other person who is
eligible for medical assistance under this
subchapter and on whose behalf the
individual has the legal authority to
execute an assignment of such rights, to
support (specified as support for the
purpose of medical care by a court or
administrative order) and to payment for
medical care from any third party;

App. 129
(B) to cooperate with the State (i) in
establishing the paternity of such person
(referred to in subparagraph (A)) if the
person is a child born out of wedlock, and
(ii) in obtaining support and payments
(described in subparagraph (A)) for
himself and for such person, unless (in
either case) the individual is described in
section 1396a(l)(1)(A) of this title or the
individual is found to have good cause for
refusing to cooperate as determined by
the State agency in accordance with
standards prescribed by the Secretary,
which standards shall take into
consideration the best interests of the
individuals involved; and
(C) to cooperate with the State in
identifying, and providing information to
assist the State in pursuing, any third
party who may be liable to pay for care
and services available under the plan,
unless such individual has good cause for
refusing to cooperate as determined by
the State agency in accordance with
standards prescribed by the Secretary,
which standards shall take into
consideration the best interests of the
individuals involved; and
(2) provide for entering into cooperative
arrangements (including financial
arrangements), with any appropriate agency of
any State (including, with respect to the

App. 130
enforcement and collection of rights of payment
for medical care by or through a parent, with a
State’s agency established or designated under
section 654(3) of this title) and with appropriate
courts and law enforcement officials, to assist
the agency or agencies administering the State
plan with respect to (A) the enforcement and
collection of rights to support or payment
assigned under this section and (B) any other
matters of common concern.
(b) Such part of any amount collected by the State
under an assignment made under the provisions of this
section shall be retained by the State as is necessary to
reimburse it for medical assistance payments made on
behalf of an individual with respect to whom such
assignment was executed (with appropriate
reimbursement of the Federal Government to the
extent of its participation in the financing of such
medical assistance), and the remainder of such amount
collected shall be paid to such individual.
42 U.S. Code § 1396p - Liens, adjustments and
recoveries, and transfers of assets
(a) Imposition of lien against property of an individual
on account of medical assistance rendered to him under
a State plan
(1) No lien may be imposed against the property
of any individual prior to his death on account of
medical assistance paid or to be paid on his
behalf under the State plan, except—
***

App. 131
***
***
***
***
***
***
***
***
(b) Adjustment or recovery of medical assistance
correctly paid under a State plan
(1) No adjustment or recovery of any medical
assistance correctly paid on behalf of an
individual under the State plan may be made,
except that the State shall seek adjustment or
recovery of any medical assistance correctly paid
on behalf of an individual under the State plan
in the case of the following individuals:
***
409.910 Responsibility for payments on behalf
of Medicaid-eligible persons when other parties
are liable.—
***
***
***
***

App. 132
***
***
***
***
***
***
(11) The agency may, as a matter of right, in order to
enforce its rights under this section, institute,
intervene in, or join any legal or administrative
proceeding in its own name in one or more of the
following capacities: individually, as subrogee of the
recipient, as assignee of the recipient, or as lienholder
of the collateral.
***
***
***
***
***
(f) Notwithstanding any provision in this section to
the contrary, in the event of an action in tort
against a third party in which the recipient or his or
her legal representative is a party which results in
a judgment, award, or settlement from a third
party, the amount recovered shall be distributed as
follows:

App. 133
1. After attorney’s fees and taxable costs as
defined by the Florida Rules of Civil Procedure,
one-half of the remaining recovery shall be paid
to the agency up to the total amount of medical
assistance provided by Medicaid.
2. The remaining amount of the recovery shall
be paid to the recipient.
3. For purposes of calculating the agency’s
recovery of medical assistance benefits paid, the
fee for services of an attorney retained by the
recipient or his or her legal representative shall
be calculated at 25 percent of the judgment,
award, or settlement.
4. Notwithstanding any provision of this section
to the contrary, the agency shall be entitled to
all medical coverage benefits up to the total
amount of medical assistance provided by
Medicaid. For purposes of this paragraph,
“medical coverage” means any benefits under
health insurance, a health maintenance
organization, a preferred provider arrangement,
or a prepaid health clinic, and the portion of
benefits designated for medical payments under
coverage for workers’ compensation, personal
injury protection, and casualty.
***
***
***
***

App. 134
***
(17)
***
(b) A recipient may contest the amount designated
as recovered medical expense damages payable to
the agency pursuant to the formula specified in
paragraph (11)(f) by filing a petition under chapter
120 within 21 days after the date of payment of
funds to the agency or after the date of placing the
full amount of the third-party benefits in the trust
account for the benefit of the agency pursuant to
paragraph (a). The petition shall be filed with the
Division of Administrative Hearings. For purposes
of chapter 120, the payment of funds to the agency
or the placement of the full amount of the
third-party benefits in the trust account for the
benefit of the agency constitutes final agency action
and notice thereof. Final order authority for the
proceedings specified in 1this subsection rests with
the Division of Administrative Hearings. This
procedure is the exclusive method for challenging
the amount of third-party benefits payable to the
agency. In order to successfully challenge the
amount payable to the agency, the recipient must
prove, by clear and convincing evidence, that a
lesser portion of the total recovery should be
allocated as reimbursement for past and future
medical expenses than the amount calculated by
the agency pursuant to the formula set forth in
paragraph (11)(f) or that Medicaid provided a lesser

App. 135
amount of medical assistance than that asserted by
the agency. [footnote omitted]
***

